<html>
<title> - CONSTRUCTION CONUNDRUMS: A REVIEW OF CONTINUED DELAYS AND COST OVERRUNS AT THE REPLACEMENT AURORA, COLORADO, VAMC</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                  CONSTRUCTION CONUNDRUMS: A REVIEW OF 
                   CONTINUED DELAYS AND COST OVERRUNS AT
                   THE REPLACEMENT AURORA, COLORADO, 
                   VAMC

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        TUESDAY, APRIL 22, 2014

                               __________

                           Serial No. 113-65

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
         
                               _____________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
87-678                     WASHINGTON : 2015                       
                     
                     
________________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="583f2837183b2d2b2c303d3428763b373576">[email&#160;protected]</a>  
                  
                     
                     
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATION

                    MIKE COFFMAN, Colorado, Chairman

DOUG LAMBORN, Colorado               ANN KIRKPATRICK, Arizona, Ranking 
DAVID P. ROE, Tennessee                  Member
TIM HUELSKAMP, Kansas                MARK TAKANO, California
DAN BENISHEK, Michigan               ANN M. KUSTER, New Hampshire
JACKIE WALORSKI, Indiana             BETO O'ROURKE, Texas
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                        Tuesday, April 22, 2014

                                                                   Page

Construction Conundrums: A Review of Continued Delays and Cost 
  Overruns at the Replacement Aurora, Colorado, VAMC.............     1

                           OPENING STATEMENTS

Hon. Mike Coffman, Chairman, Subcommittee of O&I.................     1

Hon. Ann Kirkpatrick, Ranking Member.............................     2

Hon. Jeff Miller, Chairman, of Veterans' Affair Committee........     3

                               WITNESSES

Ms. Lorelei St. James, Director, Physical Infrastructure Issues, 
  U.S. GAO.......................................................     5
    Prepared Statement...........................................    41

Mr. Kirk Rosa, State Commander, Department of Colorado, Veterans 
  of Foreign Wars................................................     6
    Prepared Statement...........................................    53

Mr. Ralph Bozella, Chairman, Veterans Affairs & Rehabilitation 
  Commission, The American Legion................................     8

Mr. Dave Davia Executive Vice President & CEO, Colorado 
  Association of Mechanical and Plumbing Contractors.............    10
    Prepared Statement...........................................    55

Mr. Micheal Gifford, MPA, IOM, President, Associated General 
  Contractors of Colorado........................................    12
    Prepared Statement...........................................    61

Glenn Haggstrom, Principal Executive Director, Office of 
  Acquisition Logistics, and Construction U.S. Department of 
  Veterans Affairs...............................................    22
    Prepared Statement...........................................    65

    Accompanied by:

        Ms. Stella S. Fiotes, Executive Director, Office of 
            Construction and Facilities Management, Office of 
            Acquisition, Logistics and Construction, Department 
            of Veterans Affairs
    And


        Mr. Richard L. Bond, Associate Executive Director, Office 
            of Operations, Office of Construction and Facilities 
            Management, Office of Acquisition, Logistics and 
            Construction, Department of Veterans Affairs

                   MATERIALS SUBMITTED FOR THE RECORD

Statement From: Hon. Ed Perlmutter...............................    67
Statement From: Senator Michael Bennett..........................    68
Statement From: Senator Mark Udall...............................    68
Questions for the Record From: Hon. Mike Coffman.................    70


CONSTRUCTION CONUNDRUMS: A REVIEW OF CONTINUED DELAYS AND COST OVERRUNS 
               AT THE REPLACEMENT AURORA, COLORADO, VAMC

                              ----------                              


                        Tuesday, April 22, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
      Subcommittee on Oversight and Investigations,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 9:03 a.m., at 
Old Supreme Court Chambers, State Capitol Building, 200 East 
Colfax Avenue, Room 200, Denver, Colorado, Hon. Mike Coffman 
[chairman of the subcommittee] presiding.
    Present:  Representatives Coffman, Miller, Lamborn, and 
Kirkpatrick.
    Also Present: Representative Gardner.

           OPENING STATEMENT OF CHAIRMAN MIKE COFFMAN

    Mr. Coffman. Good morning. This hearing will come to order. 
I want to welcome everyone to today's hearing, entitled, 
``Construction Conundrums: A Review of Continued Delays and 
Cost Overruns at the Replacement Aurora, Colorado, VAMC,'' or 
Veterans Administration Medical Center.
    I would also like to ask unanimous consent that several of 
our Colorado colleagues be allowed to join us here on the dais 
to address issues very specific to their constituents.
    Hearing no objection, so ordered.
    I would also like to welcome House Veterans' Affairs 
Committee Chairman Jeff Miller from the State of Florida, who 
will be participating in today's discussions.
    Thank you, Chairman Miller.
    This hearing will address continued problems occurring in 
the construction of the Replacement Aurora, Colorado, VA 
Medical Center that have caused construction to become delayed 
by over 1 year and over budget by more than $470 million, 
according to GAO.
    Further, it will address how VA's handling of the project 
has resulted in several lawsuits due to its failure to pay 
contractors.
    The hearing will also support current legislation that, if 
enacted, will help get the Aurora facility and other delayed 
facilities operational as close to the initial completion date 
as possible.
    The Aurora project contract required the VA to deliver a 
design to be built for $582.8 million. VA contracted with 
Kiewit-Turner to be prime contractor for the project.
    In November 2011, the parties agreed to a firm target price 
of $604 million. According to a VA fact sheet issued in 
February 2014, VA estimates the cost of the facility to now be 
$800 million. Unfortunately, based on competitive subcontractor 
and supplier bids acknowledged by VA, the real estimated cost 
of this project exceeds $1 billion.
    Many of the problems with the Aurora construction stem from 
faulty designs.
    First, VA did not even hire a contractor until after its 
initial designs were made. Since the contractor was not 
involved in the initial design and was forced to formulate its 
bid based on a design that was not finalized, the project 
required changes that led to extensive delays and cost 
increases. Even when VA delivered their final designs 8 months 
late, internal emails from VA engineers show that the designs 
were not even complete.
    The design issues also necessitated hundreds of change 
orders to get the project back on track. VA currently has more 
than 380 unresolved final change order requests worth over $350 
million. Additional emails from VA show that change orders have 
sat on a desk in VA for between 1.5 to 2 years before any 
action was taken on them.
    Once acted upon, only one person was assigned to assess the 
change orders, which considering how the backlog has almost 
reached 400, one person cannot be able to timely handle these 
requests.
    VA's refusal to issue final decisions on change orders, 
inability to produce designs that could be built within budget, 
and failure to pay contractors for work completed, has led to 
16 lawsuits currently pending before the U.S. Civilian Board of 
Contract Appeals.
    Notably, the contractors who are parties to these suits 
have offered to mediate these claims with VA, but VA has 
declined to do so.
    Considering these extensive problems with VA that are in no 
way limited to this one major construction project, recently, 
I, along with Ranking Member Kirkpatrick, introduced 
legislation that would require VA to engage the Army Corps of 
Engineers to act as a special project manager to help the 
numerous delayed and over budget VA major construction projects 
get completed closer to their initial cost and completion 
goals.
    With that, I now recognize Ranking Member Kirkpatrick from 
the State of Arizona for an opening statement.

      OPENING STATMENT OF ANN KIRKPATRICK, RANKING MEMBER

    Ms. Kirkpatrick. Thank you, Mr. Chairman.
    Good morning and thank you all for being here today in 
support of this very important issue that we will be 
discussing. I want to thank all of the veterans here today for 
their service to our country.
    Discussions for replacing the Denver facility began 15 
years ago. With the congressional authorization in 2004, 
veterans in Denver and the surrounding area were able to 
finally point to a future date for when this new facility would 
be open.
    After 9/11, and with the wars in Afghanistan and Iraq 
stretching to the ends of 2014, the need for this replacement 
facility was considerably magnified, and everyone recognized 
something needed to be done.
    Today's hearing is the fourth in 2 years that the House 
Committee on Veterans' Affairs, to include this subcommittee, 
has held to review the VA's construction policies and 
procedures. Valuable lessons have been learned from our 
investigations of several VA construction projects throughout 
the country. Now is the time to use these lessons and move this 
project forward.
    We all know that due to the ongoing litigation between the 
VA and Kiewit-Turner, this project is stalled until the 
Civilian Board of Contract Appeals issues its decision later 
this year. In the interim, there is still a great deal of 
planning and work needed to ensure this hospital will be ready 
to open its doors to veterans next year when the construction 
is complete.
    When this dispute is resolved, I hope we will not linger on 
past actions or place blame, but instead get all hands on deck 
to complete this facility and serve the veterans who need it.
    Our remaining troops in Afghanistan will return home at the 
end of this year. We have aging veterans who fought in World 
War II, Korea, and Vietnam. They all deserve access to world-
class health care throughout the VA.
    The VA and Congress must work together to ensure that the 
Veterans Health Administration and its hospitals and medical 
facilities are fully equipped, staffed, and ready to provide 
nothing less than the best health care to the men and women who 
have given so much for our country.
    I am sure we would all agree that it is our obligation as a 
grateful Nation to do what needs to be done so that veterans' 
sacrifice and service will never be forgotten.
    I look forward to the testimony today.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Coffman. Thank you, Ranking Member Kirkpatrick.
    I now recognize Veterans' Affairs Committee Chairman Jeff 
Miller for his opening statement.

             OPENING STATEMENT OF HON. JEFF MILLER

    The Chairman. I thank the chairman, Mr. Coffman, and the 
ranking member, Ms. Kirkpatrick, for inviting me here today to 
discuss this important issue, important not only to the State 
of Colorado and the veterans who will be served in this new 
facility, but all across the country.
    This project and VA major construction, in general, have 
been important issues for our committee for some time, as the 
committee members well know, especially considering the 
problems here, as well as in Las Vegas, New Orleans, and 
Orlando.
    The 2013 GAO report that addressed VA construction found 
these four facilities, on average, to be delayed by 35 months--
not days, but months--and over budget by an average of $144 
million. Now considering this report was from a year ago, and 
based on the evidence that we are going to see today, I am 
confident that these numbers are now much higher.
    During the briefings from Glenn Haggstrom, principal 
executive director of VA's Office of Acquisition, Logistics, 
and Construction, I was assured that everything was fine. I was 
assured that these projects are well under control.
    Stella Fiotes, executive director of VA's Office of 
Construction and Facilities Management, who is here today, as 
is Mr. Haggstrom, recently defended VA's major construction in 
this subcommittee's March 25 legislative hearing, where when 
questioned regarding the VA's belief of whether construction at 
the Vegas replacement facility was delivered on time and on 
budget, Ms. Fiotes responded: Yes, based on the way that we 
account for time and budget.
    Notably, GAO substantiated Las Vegas was delayed by 74 
months and over budget by $288 million.
    Now the Aurora project represents everything that is 
questionable about how VA accounts for its construction 
projects. They initially, as you have already said, Mr. 
Chairman, asked for $800 million in appropriations to fund this 
project. They contracted with Kiewit-Turner to build the 
project for $604 million. Estimates now indicate that the 
Aurora construction will cost more than $1 billion, but VA 
maintains that it will only cost the $800 million that was 
originally appropriated.
    And with that, I find it relatively disingenuous that VA 
claims to have not exceeded its budget because it asked for 
$800 million, when in fact it agreed to provide a design for 
nearly $200 million less than that amount.
    That way of thinking provides no incentive to save the 
taxpayers money while providing every incentive to fix numbers 
to suit their specific interests.
    This issue is made clear through a VA internal email that 
is going to be discussed today in which a senior resident 
engineer described how, between the spring of 2011 and the 
spring of 2012, the contracting officer of the project actually 
instructed employees to do nothing to answer proposed change 
orders so as not to affect the firm fixed-price.
    The only way the committee is privy to this information is 
because VA is currently a party to 16 lawsuits for issues 
regarding, for example, failure to pay contractors, and this 
email was produced as part of the discovery.
    The budgetary overruns, the equally questionable production 
delays occurring in Aurora are representative of the lack of 
transparency and accountability that currently plague the 
Department of Veterans Affairs.
    The systematic issues that arise in VA major construction 
lead me to believe that VA is ill-equipped to handle them 
without outside guidance. And the Aurora construction is a 
perfect example of this.
    I look forward to hearing from all the witnesses who are 
going to be here today to testify. And with that, I yield back, 
Mr. Chairman.
    Mr. Coffman. Thank you.
    I ask all members waive their opening remarks, as per this 
committee's customs.
    With that, I invite the first panel to the witness table.
    On this panel, we will hear from Ms. Lorelei St. James, 
director of physical infrastructure issues for the Government 
Accountability Office. Also on this panel will be Mr. Kirk 
Rosa, State commander of the Department of Colorado Veterans of 
Foreign Wars; Mr. Ralph Bozella, chairman of the Veterans 
Affairs and Rehabilitation Commission of the American Legion; 
Mr. Dave Davia, Executive Vice President and CEO of the 
Colorado Association of Mechanical and Plumbing Contractors; 
and Mr. Michael Gifford, president of the Associated General 
Contractors of Colorado.
    Each of your complete written statements will be made part 
of the hearing record.
    Ms. St. James, you are now recognized for 5 minutes.

                 STATEMENT OF LORELEI ST. JAMES

    Ms. St. James. Thank you, Chairman Coffman, Chairman 
Miller, Ranking Member Kirkpatrick, and other members. I am 
pleased to be here today to discuss VA's construction of the 
Denver medical facility. My testimony today is based on our 
2013 report that reviewed VA's overall construction management 
of its major medical facilities and includes our findings 
concerning the Denver facility.
    In our report, we reviewed VA facilities over $10 million, 
including Denver, and we were concerned by the amount of time 
and the amount of cost increase from the time the project was 
initially designed and presented to Congress to the time it was 
expected to be completed.
    In Denver, we reported that cost increased 144 percent over 
the initial cost and that the estimated time to complete would 
span more than a decade. VA has stated the medical center is 
expected to be completed in 2015, but recently reported issues 
between the contractor and VA could very well impact this 
delivery date.
    In Denver, one of the reasons costs and time to complete 
increased was because VA changed from developing a shared 
facility to a standalone facility. In 1999, VA and the 
University of Colorado Hospital began discussing the 
possibility of a shared facility. However, in 2004, 5 years 
later, VA decided against this because of concerns over 
governance of a shared facility and space limitations.
    In 2005, VA selected an A&E firm for a standalone project, 
but the firm's efforts were suspended in 2006 until VA acquired 
another site at the former Army base adjacent to the university 
medical center.
    Design restarted in 2007 after land acquisition proceedings 
began, but the A&E firm's design were again suspended in 
January 2009 when VA reduced the project scope because of the 
lack of funding.
    By this time, cost had increased by approximately $470 
million and completion was delayed 14 months.
    Unanticipated problems also impacted estimates in Denver. 
In pre-existing buildings, asbestos and faulty electrical 
systems needed to be addressed. And they also discovered and 
removed a buried swimming pool, and found a mineral-laden 
underground spring that forced them to continually treat and 
pump the water from the site.
    We also found that VA changed the project delivery method, 
which may have contributed to delays. VA officials stated that 
Denver was initiated as a design-bid-build project and later 
switched to an integrated design and construction method after 
the project had already begun.
    The intent of the IDC method is to involve both the 
contractor and the A&E firm early in the process to ensure 
well-coordinated efforts in designing a project. However, VA 
did not hire the contractor for Denver until after the initial 
designs were completed.
    Lastly, I want to mention the issues we found in VA's 
overall construction management that contributed to delays and 
cost increases, including here in Denver.
    We found VA lacked clear guidance on the use of medical 
planners for large projects; did not have clear guidance on the 
roles and responsibilities of VA staff working with the A&E 
firm or the contractor; and had a slow, cumbersome change order 
process with some change orders taking weeks or even months to 
process.
    We made recommendations to address these problems and VA 
has taken action. These include ensuring the use of a medical 
planner in Denver, and other appropriate locations; clarifying 
roles and responsibilities; and streamlining its change order 
process to include establishing time goals for processing them.
    While we have not evaluated how these actions have impacted 
the Denver facility since our report was published, we are 
hopeful that these actions will improve the delivery of the 
Denver facility, as well as other medical facilities that VA is 
developing.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions you have.

    [The prepared statement of Lorelei St. James appears in the 
Appendix]

    Mr. Coffman. Thank you, Ms. St. James.
    Mr. Rosa, you are now recognized for 5 minutes.

                     STATEMENT OF KIRK ROSA

    Mr. Rosa. Thank you, Congressman Coffman. On behalf of the 
nearly two million men and women of the Veterans of Foreign 
Wars of the United States, our Auxiliary, and specifically the 
nearly 19,000 VFW members here in the State of Colorado, I 
would like to thank you for the opportunity to testify 
regarding the continued construction delays and cost overruns 
of the Aurora VA Medical Center replacement project.
    The current VA Medical Center in Denver was built in 1948, 
and has outlived any reasonable lifecycle expectations. Over 
the past 66 years, health care technologies have improved and 
patient demands have changed, but our medical center has not 
kept pace.
    Discussions for replacing the facility began in 1997, and 
in 2004, the Capital Asset Realignment for Enhanced Services, 
or CARES, put the Denver VA Medical Center as one of three 
facilities most in need of replacement.
    Now on its fourth VA Secretary, the Denver VA Medical 
Center replacement project, in my opinion, is still a couple 
years away from its projected completion date of 2015. That is 
only provided there are no more delays.
    Veterans in Colorado have waited long enough and deserve 
better. That is why I am pleased to say that VFW proudly 
supports Congressman Coffman's bill, H.R. 3593. While this 
legislation will likely not have an immediate impact, it will 
benefit my fellow veterans.
    The perception of total lack of accountability and 
leadership within the construction division of the Department 
of Veterans Affairs in dealing with the new Denver VA hospital 
is completely out of control.
    A few examples are as follows. These are emails that were 
sent on various dates, the first one dated May 22, 2012. Both 
are with the Construction and Facilities Management.
    Item number one states that it is obvious that JVT, which 
my understanding is they are architects, overdesigned the whole 
project and missed critical details.
    Item two on that email, site investigation was very poor. 
We had survey problems, interior dimension problems for the 
CVS, many other problems with other dimensions and unforeseen 
conditions.
    Number four, design full of mistakes.
    Number five, 95 percent design is not even an 80 percent 
design that adds costs down the line and prevents us from 
controlling costs.
    Item number seven on that one, JVT tried to dictate all 
processes. It needed to be controlled by the R.E. office.
    Number eight, JVT doesn't understand construction. K.T. was 
brought in late and had less contribution to the construction 
process.
    And the one that really gets us veterans upset, number nine 
on that email states design is based on appearance instead of 
functionality.
    This email is listed as exhibit number 74. It also talks 
about JVT having a bad attitude toward Kiewit-Turner and about 
them insulting Kiewit-Turner in public.
    Exhibit number 79 from the same individual of the 
Construction and Facilities Management on December 18, 2012, 
gives examples of problems that were not dealt with in a timely 
manner.
    One is the pond, the groundwater problem they had. There 
was an issue with that.
    Exhibit 81 is really interesting. This email, one statement 
in the fourth paragraph: Trial and error method for $600 
million-plus project. We must be joking.
    Another statement on the email: Well, the taste of a dish 
that is prepared by several chefs normally tastes terrible.
    And: Do I sound like a bitter old man now? Have a nice 
holiday.
    That is unacceptable.
    A couple questions that I would like to get answered: At 
what point during all this do we finally say enough is enough, 
and we get the contractors paid and get the job done? Our 
veterans deserve it.
    Why is it that we can approve funding for foreign 
countries, billions of dollars, millions of dollars, in a very 
short time, yet we seem to be unwilling or unable to get a team 
in place that is held accountable, has the authority to approve 
changes, and get the funding, and get this done?
    The one question, who is the hospital being built for? Is 
it for the veterans? Or in military terms, is it a dog and pony 
show for other people?
    And my last question, why is it that it seems to be, 
especially the last couple years, every time we veterans turn 
around, we veterans are in the news? People want to take away 
medical care or our earned benefits. Now it appears that the 
new VA Medical Center cannot even get done.
    So again, the veterans are thrown to the back of the bus.
    The hardships that veterans in Colorado have incurred due 
to the lack of an adequate VA Medical Center is wrong. The VA 
staff, both medical and administrative, are good people. They 
want to help the veterans. It is wrong to allow the VA staff to 
have to work in an outdated facility.
    Our veterans have earned the right to have timely access to 
comprehensive medical care in a facility that has all the 
resources necessary to provide the best care available.
    The United States military was sent in harm's way numerous 
times over many years. We did the job that was asked of us. Now 
we ask the Congress to do their job and get this job done. 
Thank you.

    [The prepared statement of Kirk Rosa appears in the 
Appendix]

    Mr. Coffman. Thank you, Mr. Rosa. Thank you for your 
service to our country.
    Mr. Bozella, you are now recognized for 5 minutes.

                   STATEMENT OF RALPH BOZELLA

    Mr. Bozella. Thank you, Mr. Chairman, Ranking Member 
Kirkpatrick, Chairman Miller, and members. On behalf of the 
National Commander of the American Legion, Dan Dillinger, and 
the 2.4 million members, I just want to say thank you to this 
committee for the scrutiny you are applying to sorting out this 
unfortunate and really unnecessary mess with VA construction 
projects.
    As you have heard, this is one problem in Colorado, but it 
is more than that. Here in Colorado, we have waited for this 
hospital since the late 1990s. We have seen three previous VA 
Secretaries promise and fail to deliver. And under this current 
administration, we have been waiting for a half decade since 
ground was broken on this hospital in August 2009.
    I have been tracking the problems of our hospital in 
Colorado for quite some time now. I get to act in another 
capacity with the American Legion as the chairman of the 
American Legion's Veterans Affairs and Rehabilitation 
Commission. I am active participant of our System Worth Saving 
Task Force, and this task force has been in existence for over 
a decade now, and this is the largest third-party evaluation 
system for VA's health care.
    I have made seven visits across the country in this cycle 
thus far, and I have been able to see that VA has some 
problems, lots of problems, with accountability and 
transparency, largely communication issues. And these issues 
are hurting veterans' ability to access their health care.
    There appear to be systemic problems with how the VA 
manages their large construction projects, if we look at the 
big four.
    Here in Colorado, as you have heard, we are overdue and 
over budget. We have hundreds of millions of dollars locked up, 
and we feel like we are not getting anywhere. In Orlando, they 
are hundreds of millions of dollars over budget and miss 
deadline after deadline. The same applies to New Orleans. In 
Las Vegas, they opened the hospital, but they immediately 
needed millions of dollars in expansion because they couldn't 
meet the basic needs of a proper ramp for ambulances to drop 
off patients at the emergency room.
    The GAO report referenced earlier here shows that these 
four projects were, on the average, 35 months over schedule, 
and that is an average. The average cost overrun, we have it as 
$366 million. And frankly, this is unacceptable and 
unconscionable.
    Other agencies and private sector organizations continue to 
build hospitals right here in the Denver, Colorado, region and 
across the Nation. Yet the VA replacement hospital on the 
Fitzsimons campus continues to stagnate.
    On behalf of all the veterans in the Western region, the 
American Legion calls for VA to complete this project, so 
veterans will no longer be required to use inadequate and 
substandard facilities.
    The American people want a first-rate health care system 
for our veterans. You look at the internal planning process for 
the SCIP program, and you will see that VA is trying to meet 
the needs of an expanding population.
    But the mismanagement is killing these projects, and nobody 
seems to be held accountable.
    It is the same problem we have seen across the country. VA 
health care is a great health care system for veterans when 
they can access it. Between the ability to share information, 
the networking, and high-quality care, VA has some state-of-
the-art medical options for our veterans, but veterans can't 
get that state-of-the-art health care if they can't get into a 
facility.
    VA needs to take a long, hard look at how they are managing 
their construction projects, because the results are across-
the-board unacceptable.
    You have to put every option to fix all of these problems 
on the table. Steps need to be taken to ensure that future VA 
hospitals are planned, designed, and built within a 
transparent, accountable system that puts its veterans first.
    You have four projects in the four States, and who knows 
how many more are needed as the VA expands to meet the future 
needs of the 21st century veterans.
    Falling behind schedule is becoming the standard practice 
at VA, but you have to really think about what that means. 
Behind schedule means veterans have to drive farther and wait 
longer, and delay critical care until their facility can open. 
Behind schedule means pushing veterans out into the private 
sector where it is harder for their primary care providers to 
track the effects of specialty care because the private sector 
lacks the VA's VistA system of electronic health records. 
Behind schedule means that the veterans of Colorado and the 
veterans of America are not getting the health care that they 
need.
    The American Legion thanks this committee for the close 
attention to the problems of the veterans of Colorado and the 
rest of America. We want you to know that the American Legion 
is working diligently and tirelessly to keep the focus on this 
issue so we can get the positive and necessary changes from VA 
to make sure that America's veterans, those who gave 100 
percent for the defense of this Nation, do not have to face 
these problems in the future. After all, America's veterans 
deserve better.
    Thank you, sir.
    Mr. Coffman. Thank you, Mr. Bozella. And thank you also for 
your service to our country.
    Mr. Davia, you are now recognized for 5 minutes.

                    STATEMENT OF DAVE DAVIA

    Mr. Davia. Thank you, Chairman Coffman, and members of the 
committee. Thank you for the invitation to participate in 
today's hearing and for your continued stewardship on behalf of 
our veterans. My name is Dave Davia and I am the executive vice 
president and CEO for the Mechanical Contractors Association of 
Colorado, or something I will refer to as MCA of Colorado.
    We propose to this committee a more in-depth and technical 
analysis of the VA's construction program and a prime and 
subcontractor selection reform process be considered, which we 
contend will improve budget and schedule performance.
    The MCA of Colorado is a trade association affiliated with 
the Colorado Association of Mechanical and Plumbing 
Contractors. There, we operate four different and unique trade 
associations that represent the heating, air-conditioning, 
refrigeration, plumbing, piping, and mechanical service 
industry here in Colorado. We represent hundreds of contractor 
members. In 2014, we are celebrating our 125th year of 
existence.
    The MCA of Colorado is a chapter of the Mechanical 
Contractors Association of America that serves the unique needs 
of more than 2,500 member firms across the country and in 
Canada.
    In 2013, MCAA will also celebrate its 125th year in 
existence, and our other national organization, the Plumbing-
Heating-Cooling Contractors National Association, is 132 years 
old this year as well.
    Our contracting firms operate in both public and private 
sectors, and in direct Federal construction projects like the 
VA hospital.
    As you are aware, Colorado is home to many Federal 
installations, like NCAR, UCAR, NOAA, JILA, NIST, and many 
others. We also have six, or a half-dozen, military 
installations here in Colorado, all of which our members work 
on, those bases.
    So it is fair to say that we operate both as first-tier 
prime contractors or subcontractors to general contractors, and 
you will hear from my colleague Michael Gifford here in just a 
moment.
    By virtue of our view of direct Federal procurement issues 
that the VA and other civilian and defense agencies operate, it 
is fair to say we have a nonpartisan and single-industry biased 
market perspective, so our comments are offered in that manner.
    Specialty contractor firms comprise about 64 percent of the 
industry, according to the Bureau of Labor Statistics, from an 
employment perspective. And in the mechanical, electrical, and 
plumbing sector, we account for more than 30 percent of the 
overall project spend.
    In balance and fairness, Congressman Coffman, our first 
request of this committee is to take the views of performing 
subcontractors in proper balance with the views of 
nonperforming prime contractors that may be offered.
    Too often, direct Federal procurement policy forums 
outweigh the views of the prime contractors as compared to the 
subcontractors, and I am hopefully going to offer our comments 
and considerations here today to enlighten you in that regard.
    It is our sincere request that we can count on this 
committee's continued leadership, and the subcontracting 
committee in the House Small Business Committee, to correct a 
longstanding and harmful bias we believe stems from greater 
political weight in policy forums.
    The MCA of Colorado supports the mission of the Department 
of Veterans Affairs. And in fact, many of our company 
principles and the people we employ are veterans themselves.
    We support the Helmets to Hardhats program. We also have an 
innovative program called the Veterans in Piping program--the 
third installation of its kind is housed at Fort Carson in 
Congressman Lamborn's district--where we take discharging 
veterans, give them 16-week welding training experience, and 
place them in direct entry into our apprentice programs, and 
help them, our returning veterans, directly make their way into 
employment, which you all know can be problematic at times.
    The VA is a very large client of ours. We do work here in 
Denver, southern Colorado and western Colorado, in all the 
facilities, both in construction and in service. With those 
overlapping and intersecting public interests, we offer the 
following comments as constructive suggestions for improvements 
of the VA program.
    The MCA of Colorado is well aware of the GAO's report that 
Ms. St. James referenced earlier. This report documents some 
significant problems with some VA facilities, primarily those 
in Denver, Orlando, New Orleans, and Las Vegas.
    Many of the problems the GAO highlights stem from issues 
with acquisition planning, major equipment purchasing, 
conflicting roles, duties of the VA construction contract 
administration staffing, and consequent delays and cost 
overruns because of the volumes and delays in change order 
processing. This report also catalogs a significant number of 
recent past VA facility projects that were completed more 
successfully.
    In perspective, this GAO report is one in a rather long 
line of analysis of problems in project acquisition and 
planning, going back many years to the 1980s.
    In the interest of time and the fact that my comments are 
running a little over, I will skip right to what we would like 
to ask this committee to consider. A written version of my 
comments are available.
    We would ask, in conclusion, that this committee would 
position in favor of amending 3593 to include the terms of the 
Quality Construction Act of 2013, H.R. 1942, which we believe 
has some fair and balanced contracting reform suggestions for 
this committee's consideration.
    Thank you, Mr. Chairman, for the opportunity to testify on 
these important issues today. I am sorry for cutting my 
comments short and for extending my time. Thank you.

    [The prepared statement of Dave Davia Appears in the 
Appendix]

    Mr. Coffman. Thank you, Mr. Davia
    Mr. Gifford, you are now recognized for 5 minutes.

                  STATEMENT OF MICHAEL GIFFORD

    Mr. Gifford. Chairman Coffman, and committee members, thank 
you for inviting AGC Colorado to testify today. My name is 
Michael Gifford, and I am president and CEO of AGC. AGC has 400 
member firms who are the State's leading general contractors, 
specialty contractors, and supplier firms in the State.
    AGC and the construction industry have a deep commitment to 
veterans. Some AGC members are veteran-owned. AGC members also 
contract with veteran-owned firms. AGC and the construction 
industry also have a deep respect for the mission of the VA.
    A number of the members of AGC are performing construction 
work for the VA on the Aurora project, so AGC has an interest 
in the success of the project and its impact on industry 
members. AGC would like to make the following observations 
based on conversations with contractors on the project.
    The project design and schedule were not complete when the 
general contractor and subcontractors were directed to proceed 
and/or submit bids. Design changes occurred after this point. 
Schedules were delayed and lengthened.
    These changes in design and schedule caused many 
contractors on the project to incur additional costs.
    The system to deal with changes in design and the resulting 
increase in cost and schedule is a change order, which is the 
modification of a contract to incorporate a change in design, 
schedule, scope, or key terms. Changes are being ordered, but 
the formal change order paperwork is not being approved quickly 
enough, or, in some cases, at all.
    The result is that businesses are paying for increased 
labor and/or materials costs, without compensation, and some 
are even at risk of failure, if this situation continues. This 
is a cash flow crisis for businesses on the project.
    The April 2013 GAO report on the VA found many of the same 
issues on multiple large VA projects.
    AGC works with a number of State and local agencies that do 
commercial construction, including hospitals, using the CMGC 
and design-build delivery models. We do not receive the same 
level of reports of problems with changes of schedule and/or 
change orders.
    But change orders do happen. Therefore, AGC developed a way 
in Colorado to deal with those cases where change orders arise 
and there is a delay in payment. My written comments talk more 
about that.
    Our request for action: While the VA may feel that they are 
making progress on the findings in the 2013 GAO report and 
earlier reports, the pace of improvement is not fast enough to 
help the contractors on the Aurora project.
    The cash flow crisis is not fair to business, nor is it 
proper public policy. Some of these contractors have to wait a 
year or more for compensation on change orders, and the dollar 
amounts are in the millions of dollars.
    AGC Colorado is in support of H.R. 3593, the VA 
Construction Assistance Act of 2013, because it would allow the 
Army Corps of Engineers, an experienced construction management 
agency, to make an independent assessment of the effective 
design changes to cost and schedule. Then the change order and 
cash flow problems reported by our members can be addressed.
    I would like to emphasize that time is of the essence.
    In conclusion, AGC Colorado would like to reiterate its 
commitment to veterans and veteran-owned businesses, and thank 
you for this opportunity to provide views of the Colorado 
construction industry on this important matter.

    [The prepared statement of Michael Gifford appears in the 
Appendix]

    Mr. Coffman. Thank you, Mr. Gifford.
    Ms. St. James, even though your report was issued about a 
year ago, do you think the estimated Denver facility completion 
date could be or will be extended?
    Ms. St. James. In our opinion, based upon the work that we 
did, it could very well be extended. Their change order process 
seems continually to be overwhelmed. And with the disagreements 
now between VA and the contractor and the lawsuits, and 
required time for that, it is very likely that it could be 
extended.
    Mr. Coffman. Ms. St. James, in your 2013 report, you 
mentioned that you talked to the architect, engineer, the 
contractor, and VA officials working on the project. What did 
they say were the problems, if you could summarize them?
    Ms. St. James. I think what continually rose to the top was 
the change order process.
    Once you get behind the eight ball with change orders 
coming in, and depending upon what the change order is, it can 
have a cascading effect down the road. One change order is not 
always equal to another. And once you get behind that eight 
ball, it just slows down and makes it hard then for the project 
to continue, for subcontractors to be paid, and for it to get 
more toward a final completion date.
    Mr. Coffman. Do you think in any way that the slowness of 
the change order process is calculated to mask the true cost of 
the project?
    Ms. St. James. I couldn't say that for a fact. I do know 
that VA had not constructed facilities of this size in about 
13, 14 years prior to undertaking these large projects. And I 
just don't think they were organized and have the resources, 
which they came out and admitted in their own internal report. 
They didn't have the right resources to really undertake 
projects of this size. Simply, I don't think, based on our 
work, that they were ready.
    Mr. Coffman. Mr. Rosa, in your testimony, you explain the 
importance of having the architect and engineer work together 
early on in the design process. Please explain how VA's failure 
to have JVT, which is architect and engineer, and K.T. work 
together on designing this facility could have caused delays or 
extra cost.
    Mr. Rosa. Congressman, I honestly think that had they got 
the construction company involved in the early design phases, 
not only would it have been much better for the VA as far as 
money goes, but the delays would have been much less than what 
they are right now.
    You have a design architect company that, from everything I 
have read and the research I have done, is not familiar with a 
project of this size, to do what we are trying to do. You have 
a company, a construction company, that is, and they should 
have been working together from day 1, not from 8, 9 months 
down the road. Now we are going to get them together. It is not 
right.
    Mr. Coffman. Any further comments, Mr. Bozella?
    Mr. Bozella. It seems, as Commander Rosa is saying here, 
Mr. Chairman, that at the beginning, that the design-build 
process that was used here by the VA on a major project of this 
size, I don't believe that they have used that process in the 
past to this level. So they didn't hit the ground running 
because of it. There were problems right from the beginning.
    And there was no communication. There was very little 
communication at first. There wasn't a contractor at first. And 
then once they had the contractor, there was very little 
communication, at least what we could see at meetings, meetings 
that I attended, between the contractor and the VA.
    Mr. Coffman. Mr. Gifford, how does VA's handling of change 
orders and project management, in general, on the Aurora 
project compare with other Federal agencies you and AGC have 
worked with?
    Mr. Gifford. Chairman Coffman, members of the committee, 
this is a higher amount than normal for other Federal agencies, 
or, I might add, State agencies and local agencies that we work 
with.
    The change orders and specifically in two areas, the 
changing of the schedule, because time is money, and the change 
of the design and having to incorporate that in, both of those 
are more than our experience with other Federal agencies, and 
we have a number of those projects here in the State.
    And then also, the same thing with some State agencies, 
including the building of hospitals and other highly technical, 
scientific type buildings on university campuses as well.
    So our experience is, in a number of those cases, that 
design-build or CMGC is used as the delivery method versus the 
old low-bid or design-bid-build method. And so I don't think it 
is necessarily the fault of the delivery method. But the 
earlier comments about having the contractor come in earlier in 
the process, I believe, are very valid. That is one of the key 
things in design-build or CMGC, is that you get the prime 
contractor and the rest of the team, including the mechanical 
contractors, on board early, so that you can have the benefit 
of that experience during the design process.
    Mr. Coffman. Mr. Davia, do you have any further comment on 
that?
    Mr. Davia. No, I would just echo what Mr. Gifford has said, 
in so far as to say design-build is becoming more prevalent in 
our industry, especially on larger and more complex projects 
that require coordination of what could be upward of 20 to 30 
different subcontractors, from a scheduling perspective and 
from a timing perspective, given the facility and the space 
requirements or confinements that exist on this particular 
installation.
    Mr. Coffman. Thank you.
    I would just make the announcement right now that I would 
like, when the panel is done, for them to remain. We are going 
to do a second round of questions after the VA testifies, for 
this panel.
    Ms. Kirkpatrick.
    Ms. Kirkpatrick. Thank you, Mr. Chairman.
    Mr. Davia. I understand that there have been difficulties 
with payments to the subcontractors on the job. One particular 
instance involved problems establishing and enforcing correct 
labor rates for certain trades.
    How are these issues normally avoided? And what failed in 
this instance?
    Mr. Davia. Ms. Kirkpatrick, I am not clear what 
subcontractor you might be referencing, so I am going to make 
some assumptions in my remarks back to you.
    But in a typical project such as this, they will look to 
the Federal Davis-Bacon wage rate for the prevailing wage for 
the area in which the project is located. That is a point-in-
time measurement of what the wage rates are at that point in 
time.
    Now for that population of individuals that may be 
operating under a collective bargaining agreement, there may be 
scheduled increases that may be at play over the lifetime of a 
project of this size.
    For the open shop, or merit contractors, keeping labor in 
place over a 3 or 4 year period and continuity is really, 
really important. So you as a contractor have to give some 
credence to, and understanding of, price increases from a labor 
perspective. And those are usually submitted on the front end 
with the contractor's bid.
    This was a design-bid-build practice that was offered. We 
heard Ms. St. James reference that kind of design-build process 
later on. But by that time, it is kind of too late. And I don't 
mean to be glib about that. I just mean to say, if we are 
having pricing constraints part way through a project because 
of design, those really don't factor in the needs for labor 
increases to keep the job productive and people on the site.
    I am not sure if that fully answered your question.
    Ms. Kirkpatrick. Thank you.
    Mr. Gifford, I think everyone here would like to see this 
project move forward and be completed as quickly as possible. 
The backlog on change orders is a problem. And I would just 
like to know your suggestion on how we clear up that backlog, 
move this project forward, based on your experience with other 
Federal contracting.
    Mr. Gifford. Chairman Coffman and Representative 
Kirkpatrick, the stark reality is that the budget is going to 
have to be adjusted and the change orders are going to have to 
be processed in a more timely fashion, if you want to complete 
the project on time.
    The current process is not working, and it is going to take 
that stark recognition to get that done. Otherwise, if that is 
not done, many of these issues are going to be going to some 
other--it is going to continue to slow, and they are going to 
go to some other type of process, like a claim process or 
something else that is going to drag out over a number of 
years. And it may end up costing the same amount of money but 
through a very painful process for everyone involved.
    Ms. Kirkpatrick. Do you believe, if the Army Corps of 
Engineers took over management of this project, they would be 
able to solve that claims backlog and move the project forward?
    Mr. Gifford. Chairman Coffman and Representative 
Kirkpatrick, they would be able to solve the process part of 
it, but they would need an additional budget from the 
appropriate authority to then actually pay those change orders 
as well. So that would be something that I think would be out 
of their control. It would be in the control of Congress.
    Ms. Kirkpatrick. That leads me to my next question to Mr. 
Rosa.
    You called on Congress to do whatever is necessary to 
complete that project. I just wonder if you would give us a 
little more detail about what that means.
    Do you think that there should be a specific appropriation 
request that is passed out of Congress that includes adequate 
funding to complete this project? I would just like to know 
your thoughts about that.
    Mr. Rosa. I think what it is going to take is for Congress 
to take a look at what is needed right now, money-wise. We know 
we are over budget already. At what point are we going to come 
to an agreement to say, ``Okay, this is the bottom line. This 
is what has to be appropriated to build this hospital.''
    And if we get the construction folks together, get the 
architects together, get the VA together, and get a team in 
here, whether it is Army Corps of Engineers, the VA team, 
whatever, and tell them, ``This is what we are going to 
approve. You are going to be held accountable for this amount. 
Now get this damn thing built.'' That is what it is going to 
take.
    Ms. Kirkpatrick. Thank you all very much for your testimony 
today. And I yield back the balance of my time.
    Mr. Coffman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you for 
your leadership on this issue. Over the last years, you have 
been really following this closely, and I compliment you for 
your dedication on making sure the right thing is done for our 
veterans.
    There are major problems that the VA must address. The cost 
to taxpayers because of cost overruns is a big concern. But 
even more critical to me is the possible loss to veterans of 
critical health care access because of schedule delays.
    So Ms. St. James and Mr. Bozella and Mr. Rosa, does the 
Government Accountability Office believe that the schedule 
delay at the Denver facility could result in a veteran in my 
district in southern Colorado being denied access to a 
procedure that is not available elsewhere in the region during 
the meantime?
    Ms. St. James. I couldn't really answer that for sure. What 
we do know is that the major hospitals will sometimes tailor 
what is needed in the area, based upon VA's health care 
projections.
    And in managing the money, if it is truly going to be over 
$1 billion versus $800 million, and if VA is expected to manage 
that $800 million, but it is really going to cost more, then 
what VA has to do is to reduce what it is going to offer. And 
that is the part I am not sure what they are working on to 
reduce and change some of the designs that could perhaps result 
in something not being offered.
    Mr. Lamborn. Would you be able to give me more information 
on that later?
    Ms. St. James. Sure.
    Mr. Lamborn. Thank you.
    Mr. Bozella and Mr. Rosa.
    Mr. Bozella. Congressman Lamborn and Mr. Chairman, the 
System Worth Saving Task Force has one more site visit this 
year, and it is going to be in Denver, May 12, 13, 14. At the 
end of that visit, we will have a much better idea regarding 
access to Denver facilities, scheduling, the problems that the 
construction might have.
    As you know, as you well know, the new facility in Colorado 
Springs is nearing completion. I think that is going to improve 
access for certain day surgeries and the clinic procedures 
there in Colorado Springs.
    There are certain things that they can't schedule in Denver 
right now. And if they can't schedule them, they are fee-based 
out to the private providers, which are some of the remarks 
that I made. And we do have concerns anytime a veteran is not 
seen in veteran-centric care offered by VA.
    There are problems with the private sector. For one thing, 
the private sector providers really don't know how to treat the 
whole veteran, people who are coming there with PTSD issues, 
perhaps TBI issues, hearing loss, a variety of things where the 
VA is honed in in their treatment to the whole veteran.
    Then the other piece is the inability to share the 
electronic health record.
    So if their care is fee-based out, then there is a problem 
with that. I know we will share our report with you at the end 
of the Denver visit mid-May. So then we will have a better idea 
of what that access is.
    Mr. Lamborn. I would like to work with you on that visit, 
to make sure it is as successful as possible.
    Mr. Bozella. You will have an invitation.
    Mr. Lamborn. Okay, thank you.
    Mr. Rosa, especially because you know the Colorado 
landscape very well.
    Mr. Rosa. Well, what I would like to say is that Mr. 
Bozella said it very well. For me to sit here and say yes to 
that would be wrong.
    For the most part, a lot of my members who go to the VA 
Medical Center, they talk about that they get the best care 
available to them right now. Whether they have been turned away 
or not, I can't tell you.
    I can tell you of two instances I know for a fact--both of 
these are very good friends of mine who went to the VA Medical 
Center, and with what was done to them there, they went back a 
couple weeks later and they were sent out to a civilian 
hospital to get it corrected.
    As far as what actually happened, I would rather not talk 
about it, but the one gentleman's name is Terry Lyons. He is 
our post commander. He almost lost his leg.
    Do I think it is because of the doctors or anything there? 
I think it is more that it is an outdated facility that doesn't 
have the capability to handle the load that is coming down the 
pike. That is what I think is the problem.
    Mr. Lamborn. All right, thank you all for your testimony.
    Mr. Coffman. Thank you, Mr. Lamborn.
    Chairman Miller.
    The Chairman. Thank you, Mr. Chairman.
    Ms. St. James, if you would, what was the biggest issue 
with VA that you saw as you were going through the review 
process that is preventing them from being able to get the job 
done?
    Ms. St. James. Well, there have been a couple topics that 
have been mentioned here. The change in the type of contract, 
the change order process.
    But when I stand back and look at it, it really does not 
matter what kind of delivery vehicle you have. It really comes 
down to leadership in the VA and to preserving and working 
toward a good relationship with the A&E firm, as well as with 
the contractor.
    When those types of things break down, then you will see 
those problems being reflected in a process, and specifically 
in the change order process.
    And again, VA, I think it was overwhelmed to build these 
large facilities and not having the resources to really do it 
in a way that could have been better.
    The Chairman. And when you say resources, do you mean 
financial resources or personnel resources or experience 
resources?
    Ms. St. James. I would think all the above, particularly I 
think noted was that they didn't have the people with the right 
background to know how to go about starting projects of this 
size.
    And again, they recognized it in their internal review, but 
that was back in 2012. So I think it is time that they either 
get the resources and ask Congress for what it is they need, 
rather than having the hospitals that are taking longer to 
complete.
    The Chairman. And this is a good segue over to Mr. Rosa.
    The Congress has given VA every dollar that they have asked 
for, for any project, for any facility. They have given them 
every personnel who they have asked for, every piece of 
equipment that they have asked for.
    And so I would like to kind of modify your statement just a 
little, where you said that Congress should do their job and 
finish the facility. It is VA's job to finish the facility. 
They are the contracting agency.
    We gave them every dollar that they asked for. In fact, 
they have the money right now to pay the people who have done 
the work.
    And so I think it is very hard, from an oversight 
standpoint for our committee, the biggest stick we have is the 
power of the purse. The only thing we can do is either give 
money or take money away. We are not going to take any money 
away.
    Our job is to make sure that we fulfill the needs of the 
Department of Veterans Affairs. So I would just ask that we put 
a little bit of pressure on the VA, because, again, if we give 
them $1 billion tomorrow, if they choose not to give it to the 
contractor, not to approve the change orders, it doesn't change 
where we are today.
    And we are going to have an opportunity, because of your 
testimony and some of the questions that have been asked, to 
ask VA, ``Why are we in this mess?'' You know, the interesting 
thing to me is this is not just in Colorado. It is in Orlando.
    And the VA cannot be spending $1 billion for facilities 
that probably should have cost $600 million. That is not 
appropriate use of funds that should be going to veterans' 
health care, not for sticks and bricks, not for mistakes that 
are being made in the early stage.
    So your comments are well-spoken and well-taken, and rest 
assured that the committee will continue to keep the pressure 
on, as you would like, on the VA.
    What I would like to ask Mr. Davia about are change orders, 
and I know they are not all the same. But how long should it 
take for a change order to be either approved or denied?
    Mr. Davia. I would respond to that, Mr. Miller, with what 
would be considered in a traditional sense, when you start 
stacking a building, and when you start adding a lot more 
zeroes to the project, the procedural process for which a 
change order gets processed is quite long.
    So I would tell you that as a comparative, we, the 
construction industry, work with the City and County of Denver. 
The City and County of Denver reportedly had some issues in 
processing construction change orders and a whole lot of other 
things.
    And we came to a point where we found there was a 21 step 
process that was linear, and we helped them reengineer their 
process to a two-step process, which is at the same time, in 
parallel, to expedite that.
    The result of that is that we were seeing processing of 
change orders go from weeks, months, and considerably longer 
periods of time, to 30 to 45 days.
    An optimal change order would get processed very, very 
quickly. If it is a matter of changing the color of the wall, 
that is pretty simple. If it is a matter of delivering a 
different environment for respiratory issues, and you require a 
whole lot different equipment, that could take longer periods 
of time because you need lead time to get the equipment in 
place and get it engineered and get, structurally, it be able 
to be set.
    So I would tell you, from my perspective, 30 to 45 days is, 
at the outset, the longest. But I have known owners who have 
taken the serious nature of their projects like Denver and put 
them into a parallel process to expedite that kind of approval 
process.
    The Chairman. Thank you very much.
    My time since has expired, but let me say thank you to each 
of you for being here, for being willing to testify.
    Commander, thank you for your service.
    Mr. Bozella, thank you as well.
    We are honored to have you here today testifying before the 
committee.
    I look forward to a second round of questions, Mr. 
Chairman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. Gardner.
    Mr. Gardner. Thank you, Mr. Chairman, for holding this 
hearing today.
    Thank you, Chairman Miller, for being here today to address 
this important issue, what should rightfully be an incredible 
pride of the Rocky Mountain State, a new VA hospital to serve 
the needs of our veterans. And hopefully, we can get through 
this and make that happen, and make sure that it does, indeed, 
become the pride that we know it will be.
    I am struck by, Mr. Bozella, I think you had said that we 
have watched other facilities, other hospitals, being built in 
Colorado. You can go, during the time it has taken to build 
this project, to move forward, to be completed, to be on a path 
to completion. I think if you look at Poudre, if you look at 
Banner, if you look at Sky Ridge, we have seen major, major 
investments that have been completed, that are well on their 
way to be completed. And yet, we wait, as the VA works through 
significant challenges here.
    And so I want to thank you for your diligence, for your 
time in being here today, but also your commitment to seeing 
this through, because as Chairman Miller mentioned, for every 
$1 million that we are over project costs, for every $100 
million that we are over, whether it is Florida, Colorado, or 
Nevada, how many veterans have gone unserved, and many needs 
have gone unmet, many promises have been unfulfilled, because 
that money is being used somewhere else when it could go 
directly to meet the promises that we have made and need to 
keep.
    Mr. Davia, just a couple questions for you. In your 
testimony, you explain your support for the Common Sense 
Construction Contracting Act of 2014, which would ban and 
address the use of reverse auctions for direct Federal 
construction prime contractor selection.
    Can you talk a little bit about that, and the basis of that 
statement?
    Mr. Davia. Sure. Chairman Coffman, Congressman Gardner, 
thank you for the question.
    The act that we referenced with respect to reverse 
auctions, we believe that it is a procurement process that is a 
race to the bottom, and it is not in the best interest of the 
Federal Government. It is not a good policy to, as I start 
with, let's just say $1 million, and the clock starts ticking, 
and it is going to stop ticking at some point in time. And 
every moment that goes by, there is an opportunity to lower the 
number.
    And our profit margins, on a national basis, are 2 percent 
to 3 percent. So when we are talking about dropping hundreds of 
thousands of dollars, it is a process that we believe is 
fraught with difficulty, at best.
    And the other piece of that piece of legislation is what we 
call bid listing. It is a practice that existed well into the 
1980s, and for some reason in the Reagan administration, it was 
changed.
    It is simple in that it requires the prime contractor, 
whether that be us or the general contractor, to say, ``Here 
are my subcontractors,'' at the time of submittal. And that 
says, ``This is my team.''
    So we have talked a lot about design-build. Now there are 
ways to switch out people on the team, but what the practice 
is, the same $1 million example, if I feel like I need to make 
up numbers somewhere else, then we start bid shopping, or bid 
peddling is what it is also known as. And we believe that those 
two pieces that exist in kind of Federal procurement could 
possibly lead to examples of what we are seeing today.
    And so those are those two pieces of legislation. I am 
happy to answer more questions or give you more details.
    Mr. Gardner. In your testimony, you spoke about this a 
little bit in your opening statement. In your testimony, you 
spoke of the need to improve project planning and acquisition 
within the VA. Could you further elaborate on some of those 
things you may not have had time to get to during your 
statement, ways, improvements, that you would suggest the VA 
undertake to improve its major construction?
    Mr. Davia. I would. The most simple of which is Congressman 
Coffman's proposal to remove the oversight of construction from 
where it sits today and move it into the Army Corps of 
Engineers. The Army Corps of Engineers is a pretty decorated 
project management delivery mechanism.
    We understand it as contractors. We know the process. It 
seems to be fairer and consistent and transparent. And we would 
support the moving of that piece of legislation forward.
    Mr. Gardner. Thank you, Mr. Davia.
    And, Mr. Rosa, what do you believe are the causes for the 
incredible delay and cost overruns that have occurred during 
the Aurora VA Medical Center construction project?
    Mr. Rosa. Congressman Gardner, from the research I have 
been doing, and all I did was go online, and I got into this 
one office. I brought supporting documents with me.
    But when I sit there and I look at stuff that went on back 
in 2009, 2010, that shows before we even started building this 
thing that there were already going to be cost overruns, that 
the Construction and Facility Management folks from the VA 
already knew it then.
    And now we are sitting here trying to determine what caused 
it, but yet they knew it then.
    You hit groundwater, when the construction folks knew they 
were going to hit it, but the VA wants to say no. And what 
happens? They hit it.
    That is just the tip of the iceberg.
    That is where your cost overruns come from, people not 
paying attention, people not being accountable, people not 
doing what they are supposed to be doing and doing it the right 
way. There is a scope of work out there, and this is where you 
go back to the design folks, the construction folks, getting 
them all together in the beginning to try to eliminate these 
cost overruns, and build it for what it was bid for.
    Mr. Gardner. Mr. Chairman, my time is expired. I yield 
back.
    Mr. Coffman. Our thanks to the panel. You are now excused. 
But please, if you could just wait in the area, that will be 
the last panel. You will come up, after VA, if there are any 
additional questions by the members.
    I now invite the second panel to the witness table. On our 
second panel, we will hear from Mr. Glenn Haggstrom, principal 
executive director of the Office of Acquisition, Logistics, and 
Construction for the Department of Veterans Affairs. He is 
accompanied by Ms. Stella Fiotes, executive director.
    Mr. Haggstrom, your complete written statement will be made 
part of the hearing record, and you are now recognized for 5 
minutes.

                  STATEMENT OF GLENN HAGGSTROM

    Mr. Haggstrom. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, Ranking Member Kirkpatrick, and other members of the 
subcommittee. Thank you for the opportunity to update the 
committee on the construction of the Denver replacement medical 
center.
    Joining me today is Ms. Stella Fiotes, executive director 
of the Office of Construction and Facilities Management.
    In the past 2 years, VA has undertaken a comprehensive 
review of our entire major construction program and has 
numerous actions to strengthen and improve our ability to 
deliver major facilities for our veterans. With the 
implementation, acceptance, and closure of the recommendations 
in the April 2013 Government Accountability Office report, and 
from the VA Construction Review Council, VA has changed the way 
it conducts its construction business.
    With regard to the Denver project, VA and our prime 
contractor on this project, Kiewit-Turner Joint Venture, or 
K.T. is how I refer to them, is committed to successfully 
delivering the replacement facility.
    In achieving this, there are three key milestones that set 
the stage for where we are now.
    First, as part of the fiscal year 2010 appropriation, 
Congress authorized $800 million that established the total 
budget for this project.
    Second, in August 2010, K.T. signed a contract with the VA 
for preconstruction services, which included their close 
involvement with the project design going forward. At that 
time, the project was at 35 percent design, and K.T. submitted 
their offer for the 1.2 million square foot facility at $519 
million.
    Third, K.T., after 16 months of involvement with this 
project that provided them access to design and construction 
drawings and specifications, on November 11, 2011, signed a 
supplemental contract agreement for the construction of the 
project, which established a firm target price of $604 million 
and a not-to-exceed ceiling of $610 million, with a contract 
completion date of April 2015.
    As we look at the total project today, almost 44 percent 
complete, the project scope remains essentially the same as it 
was in 2010 when K.T. first became involved in the project. 
With the progression of the design to the full 100 percent 
documents, and with construction underway, there have been and 
will continue to be some changes to the project, something not 
uncommon for a project of this magnitude and complexity.
    As these changes have been identified and documented, VA 
has and will compensate the contractor accordingly, and has to 
date increased the contract target price to $630 million.
    But clearly, there has been no change in the project scope 
or complexity dramatic enough to justify the contractor's 
alleged cost of over $1 billion, nor has the contractor 
provided the required supporting documentation to VA to justify 
their estimated cost increase.
    Despite the cloud of litigation that hangs over this 
project, fortunately, a work stoppage has not taken place, 
allowing progress to continue.
    VA continues to work with the contractor to keep the 
project moving forward and has taken specific actions to ensure 
it does.
    In an effort to assess K.T.'s entitlement to the requested 
cost adjustments, VA entered into negotiations with the 
contractor. Despite fundamental disagreements regarding 
entitlement level and completeness of the documentation 
required from the contractor to justify additional payments, VA 
started processing supplemental agreements in the amounts that 
it considered justified, which K.T. refused to sign.
    Nonetheless, in an effort to ensure funding is available to 
K.T. and subsequently to its subcontractors, VA has issued 
unilateral modifications to allow K.T. to bill for the 
permitted amounts.
    Further, although K.T. is responsible for their cash flow 
and for paying their subcontractors for work approved and 
completed, in a good faith effort, VA has allowed for billing 
adjustments totaling up to $30 million. VA is proceeding 
cautiously with these adjustments due to the inherent risks to 
project completion, if K.T. is unable or unwilling to finish 
the project.
    The VA remains focused on managing successfully this 
project. Our goals are simple. We want to complete the project, 
pay K.T. what they have earned, abide by the requisite 
contracting rules and regulations, and act as prudent stewards 
of the resources entrusted to us by American taxpayers.
    Although there may be additional changes in cost and 
schedule, based on all pertinent information currently 
available to us today, VA has the funds necessary to complete 
this project. VA remains committed to meeting the current and 
future challenges necessary to finishing this long-awaited 
project for our veterans in the most judicious, cost-efficient, 
and timely manner.
    Thank you, Mr. Chairman.
    [The prepared statement of Glenn Haggstrom appears in the 
Appendix]
    Mr. Coffman. Thank you, Mr. Haggstrom.
    Mr. Haggstrom, I think when we met before, you gave me the 
$604 million figure as the figure that this hospital could be 
built for. Can you reflect on that?
    Mr. Haggstrom. We did. And as I recall, Mr. Chairman, we 
met almost a year ago in May onsite when we had the 
opportunity, both Ms. Fiotes and I, to personally brief you on 
the contract, where we stood with that, and how that contract 
worked.
    The contract that was signed has a target price of $604 
million with a ceiling price of $610 million, at that point in 
time.
    Since then, there have been numerous change orders and 
adjustments to the contract, which now bring it up to $630 
million as the target price.
    Mr. Coffman. Are you familiar with a letter--is there a 
copy of the letter that Mr. Haggstrom can be given?--a letter 
dated January 23, 2013, from Thaddeus Willoughby?
    And the letter states this: The current design exceeds the 
estimated cost of construction at award (ECCA) of $582,840,000 
by an estimated--so they are saying that $199,160,000 in 
accordance with the contract clause.
    It essentially goes on to recommending that there be 
changes in accordance with the contract clause, design within 
funding limitations.
    Are you aware of this letter?
    Mr. Haggstrom. I am, Mr. Chairman.
    Mr. Coffman. Do you disagree with this letter?
    Mr. Haggstrom. I believe you have to take that letter in 
context. And that letter was the result of a contract 
management firm that we commissioned to be a part of our team, 
and results in that cost estimate that they performed.
    And no point in time was this cost estimate ever accepted 
as an independent Government cost estimate. It was strictly the 
estimate of the firm and how they chose to look at the project.
    What Mr. Willoughby was responding to was notification to 
our A&E contracting firm that this is what those costs were, 
and to execute planning. It was nothing but planning. We never 
followed through on that. There was never a redesign or 
schedule adjustment that resulted from this letter.
    Mr. Coffman. Mr. Haggstrom, Mr. Chang, a resident engineer 
on the project, wrote a series of emails explaining the 
project's management issues. In one, he stated, ``The scope, 
schedule and budget were not managed.'' He said: No leadership, 
no knowledge and experience in this business, not following the 
handbook.
    What is FAR OPM?
    Mr. Haggstrom. I believe that would stand for Federal 
Acquisition Regulation.
    Mr. Coffman. Okay, he references that.
    Not as to the handbook, FAR OPM, et cetera, and no skill in 
organization.
    As a result of these issues, when and what was done to try 
to correct the VA's management and leadership shortcomings on 
the Denver project?
    Mr. Haggstrom. To be honest with you, Mr. Chairman, I am 
not aware of the email. I don't know Mr. Chang personally. 
Those apparently reflect his view of the project. They do not 
necessarily reflect the view of the rest of the Department of 
Veterans Affairs.
    Mr. Coffman. There was also internal correspondence 
directing the individual working on change orders not to 
process any change orders for a period of time, so change 
orders have gone 2 years unresolved.
    Is that simply incompetence from a bureaucratic standpoint? 
Or is that calculated to mask the true cost of this hospital?
    Mr. Haggstrom. I believe it is neither, Mr. Chairman. I 
have been involved in this project on a recurring basis since 
early 2012, first on a quarterly basis when we had executive 
partnering sessions, and then in the summer going to monthly 
meetings here.
    I have been down in Denver or----
    Mr. Coffman. Excuse me for a second. Do you think 1.5 to 2 
years is normal for the process of a change order?
    Mr. Haggstrom. No, and I would ask Ms. Fiotes to comment on 
that. That was part of the process that we agreed with GAO on. 
We changed our change order process. GAO accepted those 
changes. And I think if you look at them, they very much align 
with the Corps of Engineers.
    But I would ask her to comment, if you will, on those 
processes and our changes.
    Ms. Fiotes. Mr. Chairman, clearly, that----
    Mr. Coffman. Can you please start with how many change 
orders are pending right now?
    Ms. Fiotes. Currently, we have, in our books, about 120 
change orders that are in review, either by the contractor or 
by ourselves.
    Mr. Coffman. Ranking Member Kirkpatrick?
    Ms. Kirkpatrick. Thank you, Mr. Chairman.
    Everyone here wants this to be completed, because it is 
really about providing services for our veterans. With your 
completion now at 44 percent, do you think a completion date of 
April of next year, 2015, is achievable?
    Mr. Haggstrom. Congresswoman, the initial completion date 
on the contract when it was initially signed was in fact April 
2015. Just recently, we have issued an extension that now 
adjusts the extended legal completion date of this project to 
May 2015.
    It is the responsibility of the prime contractor to comply 
with those agreements and ensure that they staff and manage 
this project accordingly to meet those completion dates.
    Ms. Kirkpatrick. What is your plan to make sure that 
happens? You heard the first panel suggest that a team be 
brought in to look over this, oversee it, make sure that things 
happen on target, on time, in budget.
    Do you agree with that approach? And if you don't, what is 
your plan?
    Mr. Haggstrom. I don't. And I would ask the committee to 
allow Ms. Fiotes to put forth our position as she testified 
before the committee in late March on the view of the 
involvement of the Corps of Engineers with this project.
    Ms. Kirkpatrick. Ms. Fiotes.
    Ms. Fiotes. Congresswoman, thank you.
    As I stated earlier in my remarks, testimony, we believe 
that the assignment of a special project manager will not help 
the project, but in fact could hurt and complicate the project.
    Management oversight, an additional layer of management and 
oversight, doesn't solve or resolve project issues.
    There are questions of authorities, questions of 
contracting. The VA has a contract with K.T.; the Corps of 
Engineers does not. We can't just, with a single assignment of 
a special project manager, give up our responsibilities to 
manage the project and the funds associated with that project.
    In fact, the Corps of Engineers, and we have been meeting 
with the Corps of Engineers, because we have reached out to 
them to see what other avenues of support they could provide 
us. They provided us with support on the project early on. In 
fact, they reviewed our contract, and at the time, established 
that the project and the contract were being managed in 
accordance with the Federal Acquisition Regulations.
    So we have been working with the Corps to see what other 
avenues, and what other types of support they could provide us. 
We have talked with them about what they call a major design-
construct evaluation, which is another method they use on their 
own projects.
    But on the issue of the special project manager, they have 
in fact stated that where they have used that in the past, it 
was unsuccessful, and it resulted in an adverse impact to the 
project. And they cited a specific example with another agency. 
Therefore, they did not recommend that we pursue that.
    We do continue discussions with them on the possibility of 
a review of the project or specific aspects of our project 
management that could continue to improve our management of the 
process. And that is ongoing. Those discussions are ongoing.
    Ms. Kirkpatrick. So it sounds like the funding is adequate. 
You have a good plan to complete the project.
    I heard the first panel talk about how important 
relationships are in having a successful project. And so I am 
concerned about the fact that the monthly meetings between the 
VA and K.T. have been terminated.
    Is that a concern of yours? Is there an effort to 
reestablish those monthly meetings? I really think that a good 
relationship is essential, again, to completing this project.
    Mr. Haggstrom. Those monthly meetings were terminated at 
the request of Kiewit-Turner.
    Ms. Kirkpatrick. And did they give you any reason for that?
    Mr. Haggstrom. I believe they felt that the investment of 
their time and effort was not warranted based on what they 
perceived the results of those meetings were. So in February, I 
was advised that they would no longer attend monthly meetings.
    However, I still do communicate regularly with Mr. Scott 
Cassels, who is a principal executive within Kiewit, on a 
monthly basis to discuss ongoing issues.
    Ms. Kirkpatrick. I just want to express my concern about 
that, having managed major building projects, and knowing how 
important that line of communication is. I hope that that would 
be reestablished.
    Mr. Haggstrom. I reassure you, ma'am, on a day-to-day 
basis, those teams are right across the hall. We are on the 
same floor, in the same building. And those discussions 
continue on a daily basis, to ensure that we do make progress. 
And where possible, we overcome those issues in those daily 
discussions and reviews that are continually ongoing.
    Ms. Kirkpatrick. Thank you, Mr. Chairman. I yield back.
    Mr. Coffman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    First, on a positive note, I want to compliment the VA on 
the progress of the super-clinic in Colorado Springs, which is 
anticipated to open later this year. And veterans in southern 
Colorado are really looking forward to that completion, so 
thank you for your work on that.
    Mr. Haggstrom, my concern, as I stated earlier, is that 
schedule delays might result in a veteran in southern Colorado, 
or anywhere else in the region, for that matter, currently 
being denied access to the high level of care that they will 
ultimately be able to have when the Denver project is 
completed.
    Can you address my concern?
    Mr. Haggstrom. Certainly, Mr. Lamborn. I am not a 
clinician, and I wouldn't pretend to be. We manage the 
construction of the project.
    But I can assure you that we have recurring meetings with 
the VISN director and the medical center director with regard 
to this project. And certainly, I am not aware of any veteran 
who is enrolled in the Eastern Colorado Health Care System who 
has been denied care as a result of this project.
    Mr. Lamborn. So there are backstops with commercial 
hospitals, other hospitals?
    Mr. Haggstrom. I believe that Ms. Roff, who is the medical 
center director, has taken every avenue, be it through fee 
basis or with other VA Medical Centers or clinics, to assure 
that no veteran goes unserved.
    Mr. Lamborn. Okay, I appreciate your answer.
    Do you still believe that the completion date for the 
Denver project will be April of next year?
    Mr. Haggstrom. Sir, as I just spoke with Ms. Kirkpatrick, 
we have issued a contract extension, a modification. That 
extended contract completion date is now May 2015.
    Mr. Lamborn. Okay, one month later. Okay, thank you for 
that clarification.
    And that is in spite of the 16 pending lawsuits and all the 
other change order issues that we discussed?
    Mr. Haggstrom. There is still an obligation of Kiewit-
Turner to perform on this project, notwithstanding the 
litigation that is ongoing before the Civilian Board of 
Contract Appeals.
    Mr. Lamborn. Mr. Haggstrom, what action, in a general 
sense, is the VA taking to address the increases of estimated 
cost or the delays? I know we have addressed specifics here, 
but can you just give us a little more of an overview?
    Mr. Haggstrom. I would be pleased to do that.
    First of all, I think I would like to make it very clear 
that, in fiscal year 2010, Congress authorized $800 million to 
complete this medical center project. This was an all-
encompassing cost to include land acquisition, design, 
construction management services, and actual construction.
    And as we have gone through this whole process, we have 
made adjustments in management through management processes and 
in our change order. And there are two tracks that we have 
tried to take on this to ensure that both the subcontractors 
and the prime contractors are being paid. It is not the intent, 
and never will be the intent, of this department to have 
subcontractors or the prime contractors fund and finance the 
project.
    However, what has to be realized with regard to this is 
that this project does not contain a clause that allows for an 
economic price adjustment. Those adjustments that come to this 
cannot just be because, ``Well, our low bid was this,'' or, 
``The market now says the cost is this.'' That is not allowed 
in this contract.
    I would like to ask Ms. Fiotes--we have taken two tracks, 
through an equitable adjustment track and a change order 
track--to give you a sense on where we are, what we have 
provided to the contractor, in terms of additional payments.
    Mr. Lamborn. Now, before we do that, and I would like that, 
but first let me ask, the fact that this is also happening in 
other places around the country, like Orlando, Las Vegas, and 
other places, does that point to a systemic issue with the VA 
not having the processes completely in order?
    Mr. Haggstrom. There was an issue, admittedly, in Orlando 
years ago, in terms of the quality of the design and 
construction drawings. We resolved that. There continues to be 
issues in terms of the performance of the prime contractor to 
complete the work.
    But we keep talking about cost estimates. Are you aware 
that, actually, in Orlando, the department down-funded that 
project from the original authorization to a lesser 
authorization, and used those savings to perform another 
project in New Orleans?
    So we talk about cost estimates, but these are not 
necessarily the case. We are operating within the appropriation 
and the authorization that Congress gave us to do these 
projects. And we are allowed to expend those resources 
accordingly.
    Mr. Lamborn. My time is up. I yield back, Mr. Chairman.
    Mr. Coffman. Thank you, Mr. Lamborn.
    Mr. Miller.
    The Chairman. Mr. Haggstrom, help me reconcile the numbers. 
Everybody is focusing on $604 million or $620 million, or 
whatever that number happens to be, as the cost of the 
hospital. But you asked for $800 million, and that includes, as 
you said, the cost of the land and I guess management.
    Mr. Haggstrom. Management, contingency fees, construction 
management services, design.
    The Chairman. You don't consider that as part of the cost 
of the facility, so you don't think $800 million is the cost of 
the facility?
    Mr. Haggstrom. It is the cost of the overall medical center 
to construct. Where we have this particular type of contract, 
the brick-and-mortar piece of it is $604 million.
    The Chairman. I guess if you were trying to explain to a 
layman how much this medical center cost, and they are looking 
at the building and the land and the roads and all the 
infrastructure that was put in there, wouldn't most people say 
that it is $800 million, not $620 million?
    Mr. Haggstrom. That would be correct. It is the total cost 
to construct, not only the steel, the bricks and mortar, but 
all the other services that predate that.
    The Chairman. Just as there are startup costs and costs 
that are not even associated, I don't believe, even in the $800 
million, are they?
    Mr. Haggstrom. That is correct.
    The Chairman. So even if we agree that $800 million is the 
number, you know that number is going to be more than $800 
million?
    Mr. Haggstrom. There were additional funds that are spent 
in what Congress authorized in what they call the advanced 
planning funds. And in those advanced planning funds, we have 
authorization to do those initial site investigations, those 
types of things.
    The Chairman. But I am talking about the startup of the 
hospital. It doesn't just start up by itself.
    Mr. Haggstrom. Oh, I see, the activation, you mean, Mr. 
Chairman? Yes, absolutely.
    The activation costs are separate and apart from the 
construction costs.
    The Chairman. Do we know what the activation costs are 
going to be for this?
    Mr. Haggstrom. I am sorry, Mr. Chairman, I do not know. 
Those are out of the medical----
    The Chairman. They would be over on the health side.
    Mr. Haggstrom. Right, through VA.
    The Chairman. I mean, again, we are dickering, supposedly, 
about a $1 billion number. You keep driving it back to $600 
million. But $1 billion is probably pretty close to accurate, 
even if you don't factor in any of the change orders that are 
on the table today.
    So we could be talking about over that, correct?
    Mr. Haggstrom. Again, if you are looking at the cost of 
construction, that is established at $630 million, plus 
whatever activation, potentially, that cost.
    The Chairman. Plus infrastructure and the acquisition of 
the land.
    Mr. Haggstrom. Yes.
    The Chairman. Okay, all right.
    Ms. Fiotes, you said there was no way that you could assign 
this contract to the Corps of Engineers? Is that what you said?
    Ms. Fiotes. Assign the entire contract over to the Corps of 
Engineers?
    The Chairman. I think that is what you said. I think if we 
go back to the transcript, it would say you said we could not.
    My question is, is it you could not or you will not?
    Ms. Fiotes. Well, I was responding to the actual proposal 
in the bill, which is the assignment of a special project 
manager from the Corps of Engineers to oversee the 
construction, not necessarily to take over the contract.
    The Chairman. Well, okay.
    Ms. Fiotes. So I was responding to the special project 
manager and saying that would probably not work well.
    The Chairman. How about responding to this: What if 
Congress mandated that the Corps of Engineers take the project 
over? You could then assign that to the Corps of Engineers, 
could you not?
    Ms. Fiotes. I am not sure how to answer that, Congressman.
    The Chairman. Yes or no?
    Ms. Fiotes. If Congress mandated that we assign the 
contract to the Corps of Engineers, I guess we would have to 
assign the contract to the Corps of Engineers. I am not----
    The Chairman. It is a very simple question.
    Ms. Fiotes. I am just not clear on what the details of that 
would entail. That is all.
    The Chairman. You are the only people that are defending 
the debacle that exists today in all the major construction 
projects. And all we are trying to do is to get a handle on 
what is going on.
    Again, as I told the commander just a minute ago, we have 
given every dollar that has been asked for, haven't we?
    Mr. Haggstrom. To my knowledge, you have, sir.
    The Chairman. We have given every FTE or personnel that has 
been asked for, every piece of the most modern equipment.
    I mean, I have been told the Orlando hospital has been 
delayed because we want to put in the latest and the greatest. 
And that is great, that we should be able to do that. But when 
you are talking about replacing a facility that was built in 
1947, or whatever the date was, anything is the latest and 
greatest, I would suspect.
    I think you are the only people who have confidence in what 
is going on. We are looking to you to help instill what you 
feel to us and to the contractors.
    I mean, if I am to believe what you say, then you have the 
worst record of picking general contractors of anybody in this 
country, because you are picking bad ones everywhere you go, 
because they can't build on time, they can't build on budget. I 
don't think that is the case.
    There is a problem. Let's find it. Let's fix it.
    I yield back.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. Gardner.
    Mr. Gardner. Thank you, Mr. Chairman.
    Mr. Haggstrom, in terms of the budget, we have seen on the 
Civilian Board of Contract Appeals Web site that throughout 
2012 and 2013, K.T. was notifying the VA that the design was 
turning higher and higher, and is now over $1 billion.
    Why didn't the VA share this information with the committee 
and Congress, rather than telling us that the project was 
within budget, as it continues to do so today?
    Mr. Haggstrom. Mr. Gardner, the contract that K.T. signed 
was for $604 million. Interestingly enough, we always try to 
reach a firm fixed-price contract.
    So in March 2013, K.T. provided to the department a firm 
fixed-price proposal of $898 million. With that proposal, we 
did the evaluation and we rejected it. And we rejected it 
because there was no supporting documentation that accompanied 
it that justified the increase in price.
    Interestingly enough, those proposals were based on 100 
percent design drawings, and they had complete access.
    Today, after those 100 percent design drawings, that firm 
fixed-price proposal, now, I believe, K.T. is saying this cost 
is over $1 billion.
    Well, what has changed? That is what we are asking K.T. to 
tell us. What has changed in terms of the project scope on 
this, that even after they had access to this information, 
provided a firm fixed-price contract, now a year later, it is 
again grown over $200 million.
    So based on the facts, and, Mr. Gardner, that is all I can 
go on, are the facts. I can't go on conjecture of somebody just 
saying it is going to happen. I have to have the facts in front 
of me to understand what those changes are.
    Mr. Gardner. What is the VA's belief for the percentage of 
completion of the project at this point?
    Mr. Haggstrom. Approximately 44 percent.
    Mr. Gardner. And that is not the same as the prime 
contractor?
    Mr. Haggstrom. It may not be.
    Mr. Gardner. Do you know what the prime contractor believes 
it to be?
    Mr. Haggstrom. I do not.
    Mr. Gardner. You haven't talked to the prime contractor 
about where they are with completion?
    Mr. Haggstrom. I don't----
    Mr. Gardner. At least what they think they are?
    Mr. Haggstrom. No, I have not, in several months, to my 
recollection.
    Mr. Gardner. Is there anybody who has talked to the prime 
contractor about where they believe they are?
    Mr. Haggstrom. I would have to ask my project team.
    Mr. Gardner. The project team doesn't share that with you?
    Mr. Haggstrom. Mr. Gardner, they have not.
    Mr. Gardner. Isn't that something that you should know?
    Mr. Haggstrom. Mr. Gardner, we base our completion dates on 
how we have paid out, and that is 44 percent.
    Mr. Gardner. But not on actual progress?
    Mr. Haggstrom. It is related to the actual project and the 
cost of the project that we authorize payment against the total 
cost.
    Mr. Gardner. Why was the firm target price of $604 million 
arrived at without regard to any design documents?
    Mr. Haggstrom. Well, as I said earlier, I find that very 
interesting, in that Kiewit-Turner was conducting 
preconstruction services on a contract that was awarded in 
August 2010. Sixteen months they were on this contract. They 
had access to these documents. And they signed. We didn't twist 
their arm. We didn't demand that they sign.
    They signed the contract for $604 million, as did we.
    Mr. Gardner. But there were no design documents, at that 
point?
    Mr. Haggstrom. We believe there were.
    Mr. Gardner. The contractor, I believe, has made numerous 
requests to meet with the Secretary to try to resolve these 
issues outside of the legal process. Has that meeting taken 
place? And if not, why not?
    Mr. Haggstrom. It has not. The Secretary has invested the 
authority within me to make this project happen. I have told 
K.T. that. And I cannot see, nor does the department see, any 
benefit at this point in time in terms of that meeting.
    K.T. has chosen to go to litigation. It is now in the 
courts, and those decisions will be made in the courts.
    Mr. Gardner. So the Secretary has refused to meet with the 
contractor on this?
    Mr. Haggstrom. That is correct. The Secretary has not met 
with the contractor, nor do we recommend that the Secretary 
meet with the contractor.
    Mr. Gardner. I understand there are claims filed, but when 
there are disputes that arise, isn't that a natural thing, a 
requirement to file a claim at that point?
    Mr. Haggstrom. It is.
    Mr. Gardner. So why has the Secretary refused to meet with 
the contractor?
    Mr. Haggstrom. There is nothing that is going to change 
with regard to the claims that have been put forth by Kiewit-
Turner.
    This is a legal interpretation of the contract, and the 
courts need to decide. We have a position, as does K.T.
    And mediation is not going to resolve that difference in 
our views. And that is exactly why it is in the board of 
appeals to make resolution on.
    Mr. Gardner. So there is an active contract----
    Mr. Haggstrom. There is.
    Mr. Gardner [continuing]. Of a VA hospital somewhere 
between $600 million and over $1 billion that has not been 
built, and the Secretary of the VA and the contractor have not 
met.
    Mr. Haggstrom. I meet with the contractor. I represent the 
Secretary. He has given me authority to do so.
    Mr. Gardner. Well, may I suggest that perhaps we need 
somebody else in the room, like the Secretary?
    Mr. Haggstrom. I will, certainly, relay that to him.
    Mr. Gardner. I yield back.
    Mr. Coffman. Ms. Kirkpatrick.
    Ms. Kirkpatrick. Thank you, Mr. Chairman.
    You said that this is a firm fixed-price contract, yet that 
doesn't preclude change orders, does it?
    Mr. Haggstrom. This is not a firm fixed-price contract at 
this time.
    Ms. Kirkpatrick. Okay, I misunderstood.
    Mr. Haggstrom. The goal is to get to a firm fixed-price 
contract. And even in a firm fixed-price contract, there is 
still the potential for change orders.
    Ms. Kirkpatrick. Okay, so I am just a little unclear on why 
you want to move it to a firm fixed-price contract from what it 
is now.
    And will you tell us again what it is now?
    Mr. Haggstrom. What this is, is a firm target-priced 
contract.
    Ms. Kirkpatrick. And how is that different, a target-priced 
contract different from a firm fixed-price?
    Mr. Haggstrom. When you go into a firm fixed-price, many of 
the issues are included in that firm fixed-price that may 
potentially not be included in a firm target price.
    So what this is, is we are working with the contractor to 
try to establish a firm fixed-price, and then that would 
mandate what that final cost is of the project.
    Ms. Kirkpatrick. When you get to the firm fixed-price 
contract, will that include the change orders that have now 
been issued that are being in the process of being resolved?
    Mr. Haggstrom. It would. And those adjustments have already 
been made within the contracting vehicle that we are using, in 
that we have adjusted that firm target price to $630 million.
    Ms. Kirkpatrick. Okay, thank you for that clarification.
    I yield back.
    Mr. Coffman. Thank you so much for your testimony today.
    I just want to say, as a veteran, before you are excused, I 
just think that the mission of the VA is really to provide 
health care benefits to those who have served this country. And 
what you have demonstrated, I think, today, or what has been 
demonstrated today in testimony, certainly, by the GAO, is that 
you have problems on every project, not just this project. And 
every project has different contractors.
    And what that leads me to believe is, clearly, the VA is 
not a construction entity. It is not your core competency. And 
I think that is, certainly, demonstrated here today.
    Thank you so much for your testimony.
    Mr. Haggstrom. Thank you, Mr. Chairman.
    Mr. Coffman. I would like to bring the first panel back for 
a final round.
    Thank you so much for returning. This is the final round, 
and we will conclude the hearing following this round.
    Mr. Gifford and Mr. Davia I think from a contracting point 
of view, what is concerning to me is the extraordinary length 
of time that it is taking to do these change orders. And I have 
to think it is so long that it is calculated.
    And I think that there is evidence, certainly, that has 
been disclosed in internal documents that say it is calculated.
    From your perspective, I would like to hear your view on 
why this change order process is so slow, and is it there to 
mask the true cost of this facility?
    Mr. Gifford.
    Mr. Gifford. Mr. Chairman, members of the committee, I 
can't sit here and speculate as to intent, on why change orders 
would take so long.
    However, I do know that the GAO's report documents that 
this has taken place on a number of projects, regardless of 
delivery method. We have talked a lot about that. So it does 
seem to be a pattern.
    There has been recognition in the VA's own testimony that 
they were slow in processing change orders and were needing to 
make improvements and are trying to do so.
    However, I will say that the true cost of a project is a 
simple mathematical formula, which is the budgeted cost, 
sometimes it has been called a firm fixed-price. In State 
contracting here, it is called a guaranteed maximum price, a 
GMP.
    But then you are going to have some change orders that I 
talked about before, that could be only scheduled related, just 
a change in schedule. It could be a change in design. It could 
be conditions that are encountered, a change in scope. Maybe 
you want to move somebody into the fourth floor of an 
individual building faster than you originally thought. Just 
that speeding up of a schedule, over time, different things.
    You have to add those pieces into the mathematical 
calculation to get to the final true cost. And the slower it 
takes to lay another change order on the table, then you are 
not adding that to the final numbers.
    Mr. Coffman. And it gives the appearance of a lower number, 
does it not? At that point in time?
    Mr. Gifford. At that point, it would appear lower than what 
the final cost is going to be, because you haven't laid some of 
those other change orders on the table yet.
    Until they are an official change order--remember, I said a 
change order is a change to the contract--it is just a field 
directive or a change directive. ``Go do this, and we will 
count that up later.'' Until you add that in, the cost of the 
project has not risen.
    Mr. Coffman. Mr. Davia
    Mr. Davia. I would only add that, in construction, we 
consider the cost to build something to be inclusive of land, 
the cost of materials, the people to build it, the 
commissioning, everything it takes, so that we deliver to the 
owner a fixed-price project for X dollars.
    And in layering items in different buckets, or calling them 
different things, whether it is $600 million, or $1 billion, 
you need to derive at what it costs Congress and the taxpayers 
to arrive at, ``This is how much this building will cost.''
    And I would echo Mr. Gifford's comments and only add one 
more thing. In an environment like today, most projects are 
being fast-tracked. We do something called building information 
modeling, which is we build a building on the computer before 
we dig a ditch.
    And why that is important is it avoids collisions and other 
things that maybe the steel erectors put a wall here, and we 
have to drive our pipe or duct through it, and now all of a 
sudden, we are cutting it out and redoing it, which lends 
itself back to the original comments that I made, which is that 
it is really nice to have the entire design team involved long 
before we start kind of finalizing contracts and values. It 
would lend itself to avoid situations much like you are hearing 
today.
    Mr. Coffman. Are there smaller employers, either one of 
you, that may very well go under as a result of this 
mismanagement, in terms of the change order process?
    Mr. Davia. I will take a turn at that first. Two things, 
number one, I talked about the cash flow crisis, and yes, it is 
very possible that one or more especially smaller companies 
could cease to exist if they are starved of the extra cash long 
enough.
    And we are at a point now where I have a concern that that 
could happen on this project. I am not saying it will happen, 
but I have a concern. And there are two reasons for that. 
Number one, construction is a cash flow business, so you need 
cash flow to continue to work and keep your people working on 
other projects. And if you have receivables that are over 90 
days, if you have a lack of cash on your balance sheet, you 
can't go and bond for the next job.
    So if you can't continue to do work, and you are owed money 
that you didn't anticipate a change, an additional cost, they 
can really get you into a bad spot. Now, maybe you can go get 
some other work that doesn't require bonding and try to make up 
the difference, but it really can impair your ability to go 
forward.
    And if you stop moving as a construction company, and you 
are smaller, the real possibility exists that you can no longer 
be in business.
    Mr. Coffman. My time has expired.
    Ms. Kirkpatrick.
    Ms. Kirkpatrick. Mr. Davia on fast-tracking, whether or not 
the VA or the Army Corps has that capability, I don't really 
know. But in your experience, isn't it typically the contractor 
who has that capability to fast-track?
    Mr. Davia. Ms. Kirkpatrick, it is. It is issued by the 
owner to say the date is the date, and we need you to make 
that. And we would come back to them and say that may require 
two or three crews, it may require graveyards, weekends, things 
that weren't part of our original pricing because in a panacea, 
we work 5 days a week, start at 7, end at 3. But when you get 
into that kind of environment, it does cost the owner more, and 
we as construction professionals, we work for the owner.
    So if that is what they say we need to do, we do it, but it 
does come at a price.
    Ms. Kirkpatrick. Do you see that as a possibility for this 
project in Aurora, or do you see it as necessary to meet that 
target completion date of May 2015?
    Mr. Davia. We heard today from the two gentlemen to my 
right and your left about access of a facility of this nature. 
I would say to you that the construction community always finds 
a way to rally behind things. All you have to do is look to 
Northwest Colorado to the floods we experienced.
    We can move mountains and do great things in a very 
condensed period of time. We just need the owner to say yes and 
have assurances that the funding is available, because if we 
move without that approval process, then we as the contractors 
are at risk. It is our livelihood that is at risk, not the 
owners' or the veterans'.
    Clearly, in this case, we could do that if we were given 
the assurances and the green light to go.
    Ms. Kirkpatrick. Can a fixed-price contract be fast-
tracked?
    Mr. Davia. I don't know the terms of this particular 
agreement. But I would offer the following comments, maybe a 
little naively, to say I heard there is a desire to get to a 
fixed-price contract for this project, but it is currently not 
a fixed-price contract.
    Therefore, I can only assume that we can fast-track or the 
VA can make necessary arrangements to authorize the fast-
tracking of this contract. But again, I think price will be the 
factor, if it is not already.
    Ms. Kirkpatrick. Mr. Gifford, I am concerned about the 
number of contractors who might be affected in this particular 
project, because, as you know, you testified or Mr. Davia that 
the profit margin is between 2 percent and 3 percent, and very 
few contractors have the ability to carry huge amounts of money 
for a long time, and especially in the current economic 
climate.
    Do you have any idea how many contractors on this 
particular job are facing that possibility?
    Mr. Gifford. Representative Kirkpatrick, I don't have a 
firm number, because that would be going into some pretty 
minute detail in each financial situation. But it is not 
uncommon to have anywhere from 20, 30, 50, or even more 
subcontractors or pieces of a commercial building of this size. 
And all of them, to my knowledge, have a piece of any change in 
schedule, which is a huge one on this project, just to change 
the schedule and design. And so that goes to the financial 
wherewithal of each of those companies.
    But I wouldn't be surprised if you were looking at 10 or 
more companies that could be in a serious category, just based 
on different ones that I have talked to.
    Ms. Kirkpatrick. Thank you. And again, I thank the panel 
for testifying, and thank you for your service to our country.
    Mr. Coffman. Thank you, Ms. Kirkpatrick.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Mr. Bozella, transparency is a problem that you cited in 
your testimony, and that is one where the VA suffers what 
appear to me to be systemic issues and problems.
    What can the VA do to improve transparency in major 
construction projects like the Denver project?
    Mr. Bozella. Mr. Lamborn, Mr. Chairman, first, let me 
preface that by saying, in our work in the System Worth Saving 
Task Force, the biggest problem we see in VA is not the fact 
that they have problems. Every health care system has problems. 
It is what they do about the problem.
    And what they do is a very slow process of enabling the 
local administration of that hospital to be able to get out in 
front of it, tell the public what is going on, and what they 
are going to do to fix it, once we understand they have a 
problem.
    The Legionella issue in Pittsburgh, where six veterans died 
from Legionella disease--I know Chairman Miller is well-aware 
of that whole process.
    In South Carolina, and the backlog of G.I. consults, and 
four veterans ended up with cancer because they weren't 
diagnosed in time.
    But the process to fix that goes through a long line up the 
chain of command to the central office to finally approve a 
press release. The same thing happens with the construction 
processes.
    This local administration was told they weren't allowed to 
talk to us, the veterans, about what is going on in hospital. I 
have sat in meetings, the last one that comes to mind is June 
2011, where the contracting officer sat in one corner of the 
room, the other contracting officer ran the meeting. The room 
was full of VA staff members. And nobody is asking questions.
    I was invited to the meeting as a veterans' representative. 
I was the only person asking questions. And when the meeting 
was over, one of the senior hospital medical staff came to me 
and said, ``You keep doing this. We are not allowed to say 
anything here.''
    So it seems to me the communication has closed up. And I 
believe that is where a different perspective on the change 
order process--it is like nobody is talking about what is wrong 
with the hospital. They, certainly, don't want to talk to us.
    And I did challenge the VA with that, yesterday. And I want 
to credit Mr. Haggstrom and his team. They met with eight of us 
at the hospital yesterday, and that was the first time that we 
heard information of what the VA is thinking about this 
project, a lot of what you heard this morning. And it was good 
to hear that.
    The point is, you should tell us what is wrong, tell us 
what you are going to do to fix it. Don't be afraid of bad 
information.
    In fact, instead of us crafting your message, you craft 
your message and we can be become your greatest ally to resolve 
it.
    Mr. Lamborn. And, Commander Rosa, I appreciate your work 
here in Colorado, and it has been great to work with you over 
the years. My office enjoys working with you and the folks at 
the VFW.
    Do you have anything that you would like to respond to, 
having heard the VA's testimony?
    Mr. Rosa. Mr. Lamborn, I sat here and I listened to it. And 
I will be honest with you, I come from an old school in the 
Navy. I am an old Navy Chief. And I think it would probably be 
better if I didn't comment, because some of the things I 
heard----
    [Laughter.]
    Mr. Rosa. I think we have a term for it in the Navy, and I 
refuse to do that here, out of respect.
    But I do think that some of the things I have read in my 
research, dealing with these litigations and the lawsuits and 
everything, I am still trying to figure out how we can still 
have a date of May 2015 when we have constant delays. We have 
litigation going on. We have lawsuits going on. But we are 
going to complete this thing in May 2015?
    I am sorry, I am a realist. I am not a dreamer. Thank you.
    Mr. Lamborn. Thank you.
    And I will just conclude by saying I do appreciate what the 
VA is doing in Colorado Springs with the super-clinic down 
there. They are doubling the current space available for local 
treatment of health care for veterans. And that means that 
people all over southern Colorado won't have to make the trip 
to Denver that is sometimes very difficult, especially if there 
is a health issue.
    So what they are doing appears to be on time, on budget. 
And I applaud that. And I thank them for that good work. And I 
look forward to that opening later this year.
    I just hope we can get this facility in Denver fixed.
    Mr. Chairman, I yield back.
    Mr. Coffman. Thank you, Mr. Lamborn. That is Aurora.
    [Laughter.]
    Mr. Coffman. Mr. Miller.
    The Chairman. Mr. Gifford, these are pretty general in 
nature, but does a contractor or a subcontractor do work before 
the change order is authorized or approved, as a general rule?
    Mr. Gifford. Representative Miller, that is a very good 
question. There are situations where the contract requires that 
when the owner directs additional work, that that work 
commence, even if there is not a signed change order.
    The Chairman. But they have been directed by the owner to 
make that change. So they are not just going out and doing this 
work, I would not assume, unless somebody had approved. But 
what they are saying is, we need to do this change, and this is 
what it is going to cost to make the change.
    Mr. Gifford. And to be clear, there is a chain of command, 
so the owner would direct the prime or the general contractor. 
Only the prime or general contractor would direct the 
subcontractor.
    The Chairman. And the other question is, when a contractor 
bids, when the prime bids a project, he is relying on documents 
and designs that are provided by the owner, correct?
    Mr. Gifford. That is correct. There are nuances in the 
different delivery methods, whether it is design-bid-build or--
--
    The Chairman. So if there is a flaw in the design, or some 
type of groundwater problem exists, or there is dewatering that 
needs to be done, or piles that need to be set, that wasn't 
apparent from the design and the documents, who bears that 
cost?
    Mr. Gifford. Again, that is a fairly----
    The Chairman. Especially if we have a firm target-price 
contract.
    Mr. Gifford. It would go back to the type of contract that 
you have. But you are describing maybe a condition that wasn't 
known. It could be asbestos in a building, or it could be 
groundwater.
    The Chairman. Wasn't known to the contractor.
    Mr. Gifford. Right.
    The Chairman. It may have been known to the owner?
    Mr. Gifford. In some cases, that, certainly, can be the 
case, that it can be known, and there could be other kind of 
design changes, where it just says, why do we have a curved 
wall when we can have a straight wall?
    The Chairman. And I am not implying at all that that it is 
what has occurred here. But I am definitely aware of instances 
at New Orleans, where the owner knew certain things existed and 
did not inform the contractor. And that is not right.
    Mr. Gifford. I would agree. In most cases, that is why the 
change order vehicle or tool exists, to adjust for those types 
of situations.
    The Chairman. And I am just trying to help the committee 
understand that I don't believe the contractor is going out 
arbitrarily, throwing change orders at the owner in order to 
get their price jacked up.
    I mean, I find it very difficult and, unfortunately, 
because of the litigation, we can't invite the prime contractor 
on this project to testify, but I can't believe that they have 
submitted change orders and no documentation.
    Is that normal?
    Mr. Gifford. No, that is not normal.
    The Chairman. I yield back.
    Mr. Coffman. Mr. Gardner.
    Mr. Gardner. Thank you, Mr. Chairman.
    Mr. Davia. I just would like you to respond to some of the 
comments made by Mr. Haggstrom.
    Mr. Davia. Thank you, Congressman Gardner.
    It felt like to me, from listening to the testimony, that 
there is an assertion that the general construction community 
may be filled with some bad actors or folks who just don't get 
it right in every market, maybe specifically here in Aurora. 
Kiewit-Turner, to be in full disclosure, is not a member of 
mine, but I feel compelled to defend them a little bit.
    They are great contractors. My members enjoy working for 
them. If they were not good contractors, we sell a service, and 
if we can't sell that service and perform to the owner's 
expectations over a period of time, we would be out of 
business. Those are just the pure factors of the market and the 
dynamics we live in.
    We are not in the legal profession. We are in the 
profession of building items. And so it is not in our general 
interest, nor is it our desire, to end up in court, nor 
position a project to do that.
    You only get so many opportunities to do that before an 
owner says, ``I am never going to hire that so and so again.'' 
And that is unfortunate.
    Ninety percent of construction firms in Colorado employee 
20 or fewer people. This is a small-business issue. This isn't 
about some behemoth financing some project, or trying to play 
chicken, if you will, with an owner.
    I have to tell you that we specialize in building 
buildings. We have teams that specialize in building certain 
kinds of applications just by nature.
    I too would offer, and this may sound trite, and I 
apologize, but I stopped believing in the tooth fairy a long 
time ago. I think the date of May 2015 is problematic, given 
the fact that you have this much before the legal system to 
interpret and sort out.
    And so I would just ask that this committee take a look at, 
real hard and fast, the proposal Chairman Coffman has, and try 
and find a way to support that.
    The Army Corps of Engineers does an outstanding job, in our 
opinion, of being stewards of taxpayer dollars and 
administering construction projects.
    So I would conclude my comments, unless you have something 
else you would like to ask.
    Mr. Gardner. I just want to thank the panelists.
    And thank you, Mr. Chairman, for your leadership on this 
issue. Thank you.
    Mr. Coffman. Thank you, Mr. Gardner.
    Ms. Kirkpatrick.
    Ms. Kirkpatrick. Mr. Chairman, I have some statements for 
the record, from Senators Udall and Bennet, and from 
Representatives Polis and Perlmutter, that I would like to 
submit for the record.
    Mr. Coffman. Is there any objection?
    So ordered.
    Mr. Coffman. Thank you, panel. You are now free to leave. 
Thank you so much for your testimony today.
    Mr. Bozella, thank you so much for your service to our 
country.
    Chief Rosa, from my Marine Corps days, thank you for your 
service as well.
    Today, we have had a chance to hear about many problems 
occurring with VA's major construction projects, particularly 
with regard to extensive delays and cost overruns occurring at 
the replacement Aurora VA Medical Center.
    As such, this hearing was necessary to accomplish a number 
of goals: first, to assess the extent of delays and amount over 
budget for the current project; second, to require an 
explanation from VA on how the project has been allowed to 
suffer these pervasive problems; and third, to determine what 
measures can be taken to get the project back on track, so 
local veterans can begin receiving necessary care.
    I remain unconvinced that VA can fix these problems without 
outside intervention, so I encourage my colleagues to support 
our bipartisan bill, H.R. 3593, the VA Construction Assistance 
Act.
    I ask unanimous consent that all members have 5 legislative 
days to revise and extend their remarks and include extraneous 
material.
    Without objection, so ordered.
    Mr. Coffman. I would like to once again thank all of our 
witnesses and the audience members for joining us in today's 
conversation.
    With that, this hearing is adjourned.
    [Whereupon, at 11:11 a.m., the subcommittee was adjourned.]
                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                    Prepared Statement of Kirk Rosa

    Mr. Chairman and Members of the Subcommittee:
    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW), our Auxiliaries, and specifically the nearly 
19,000 VFW members living in Colorado today, I would like to thank you 
for the opportunity to testify regarding the continued construction 
delays and cost overruns of the Aurora Veterans Affairs Medical Center 
(VAMC) replacement project.
    The current VAMC in Denver was built in 1948 and has outlived any 
reasonable lifecycle expectations. Over the past 66 years, health care 
technologies have improved and patient demands have changed, but our 
medical center has not kept pace. Discussions for replacing the 
facility began in 1997, and in 2004 the Capital Asset Realignment for 
Enhanced Services or CARES put the Denver VAMC as one of the three 
facilities most in need of replacement. Now on its forth Secretary, the 
Denver VAMC replacement project is still a year away from its projected 
completion date.
    Veterans in Colorado have waited long enough. The Government 
Accountability Office (GAO) reported last year that the total estimated 
time to complete this facility will be 10.5 years. In contrast, the 
Naval Facilities Engineering Command reports that they take 
approximately four years to build a medical facility from design to 
completion. This shows there are more efficient ways for federal 
agencies to contract and build facilities.
    The Department of Veterans Affairs (VA) has taken steps to improve 
their major construction practices. In April 2012, the Secretary 
established the Construction Review Council to conduct oversight and 
performance accountability for planning, budgeting and executing VA's 
capital asset management process. The Council identified five areas 
that contributed to VA's construction cost overruns and delivery 
delays.
    VA identified that placing project development in front of 
authorization and appropriations in the capital investment program 
process will reduce the number of project unknowns and provide a more 
reliable cost and time estimate. Then the Council recommended four 
other actions that should improve VA's real property capital program. 
The recommendations start with requiring VA to have the more complete 
design of a project before submitting for funding, and to conduct 
master planning in coordination with the Strategic Capital Investment 
Plan (SCIP). It then calls on VA to improve the design review process, 
better coordinate the SCIP process with the budget process to improve 
funding recommendations, and design a program management process that 
will be used while the facility is being built to improve communication 
within VA and between VA and the general contractor.
    These and other initiatives VA has undertaken to improve their real 
property capital planning are noble, but with access and utilization 
gaps in major construction that will cost more than $20 billion to 
close, more must be done.
    That is why the VFW supports Chairman Coffman's bill, HR. 3593, the 
``VA Construction Assistance Act of 2013.'' This bill will codify many 
of the recommendations of the Construction Review Council and GAO by:

        <bullet> Using medical equipment planners from the onset of a 
        major medical facility construction project.
        <bullet> Developing and using a project management plans to 
        improve communication among all parties involved.
        <bullet> Place construction projects under peer excellence 
        review.
        <bullet> Developing a metrics to monitor change-order 
        processing times and ensure that process meets other federal 
        department and agency best-practices.

    By placing these provisions in code, there will not be any 
ambiguity at the project management level on what is required while a 
facility is under construction. This will lead to better communication 
between VA and general contractors, reducing the number of change 
orders and reducing the number of disputes between the two parties, and 
in the end ensure that facilities are built on time and on budget.
    The bill will also require VA to use the design-build process when 
possible. This process places the architectural/engineering company and 
the prime construction contractor under one contract. This method can 
save VA up to six months of time by putting the design phase and the 
construction performance metric together. Placing the architect as the 
lead from start to finish, and having the prime contractor work side-
by-side with the architect allows the architect to be an advocate for 
VA. Also, the architect and the prime contractor can work together 
early on in the design phase to reduce the number of design errors, and 
it also allows them to identify and modify the building plans 
throughout the project. This is a common sense solution to more 
efficiently and effectively build major construction projects.
    The last provision is for the Army Corps of Engineers to provide a 
special project manager to conduct oversight of the construction 
operations regarding compliance with acquisition regulations, and 
monitor the relationship of VA and the prime contractor. It will also 
authorize the Corps to assist in construction related activities, such 
as change-order requests, and provide guidance on developing best 
practices in overall project operations.
    The VFW supports this provision, but it should be seen as a stop-
gap measure to help VA to quickly complete these three outstanding 
major construction projects, and systems must be put in place to ensure 
VA can function under similar guidance without the assistance of the 
Corps on future projects.
    It is important for VA to become more efficient at facility 
construction. Veterans have expectations that medical facilities will 
be available when VA first states what the completion date will be. It 
is obvious by looking at the number of delays and cost overruns that 
the contracting and building procedures that VA currently uses are 
antiquated and are costing VA millions of dollars more for each 
project; and causing five to six year delays in much needed medical 
facilities. By passing this legislation, VA will gain better oversight, 
cost controls and more efficient procedures for future construction 
projects.
    Mr. Chairman, this concludes my remarks and I look forward to any 
questions you or the Committee may have.
    Information Required by Rule XI2(g)(4) of the House of 
Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2013, nor has it 
received any federal grants in the two previous Fiscal Years.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


              Prepared Statement of Mr. Glenn D. Haggstrom

    Good morning, Mr. Chairman and Members of the Committee. I am 
pleased to appear here this morning to update the Committee on the 
status of the construction of the replacement medical center in Denver. 
Joining me today is Stella Fiotes, Executive Director for Construction 
and Facilities Management.
    I would like to take a few moments to highlight two of VA's most 
recent projects that have been completed to serve Colorado Veterans. 
Valor Point Homeless Domiciliary, which opened in May 2013, is a 40-bed 
facility with a two-fold mission: 1) To identify homeless and at-risk 
Veterans who need residential treatment to overcome homelessness; and 
2) To provide these Veterans transitional, recovery-focused treatment 
that increases their independent living skills so that they can obtain 
and maintain housing upon graduation. The new Golden VA Clinic, which 
opened in February 2014, is a two-story, 40,000 square foot facility, 
with a Silver LEED energy efficiency rating, that replaced the 2,000 
square foot Lakewood VA Clinic at the Denver VA Regional Office. 
Serving 12,000 Veterans, the Golden VA clinic has been outfitted with 
additional radiology, laboratory and mental health staff to increase 
access for Veterans. To date, over 6,000 Veterans have switched their 
primary care site to this clinic over other facilities in the Denver 
metropolitan area.
    The Office of Acquisition, Logistics and Construction (OALC), is 
currently managing the major construction project to replace the 
existing Denver VA Medical Center in the VA Eastern Colorado Health 
Care System (ECHCS) with a new medical center complex at the Fitzsimons 
campus in Aurora, Colorado and is actively engaged in the execution of 
46 additional major medical and cemetery projects that are either in 
active planning, design, or construction. This year, VA plans to 
deliver five medical and two cemetery projects for Veteran use
    The Denver VA replacement medical center project will include 182 
inpatient beds, an outpatient clinic, a 30-bed community living center, 
a 30-bed spinal cord injury center and a 4-bed blind rehabilitation 
unit. To date, construction has been completed on three phases, 
bringing the total project to 44 percent complete. This project will 
also allow continued collaboration between the Denver VA Medical Center 
and the University of Colorado Hospital, which relocated to the 
Fitzsimons campus, and with the U.S. Air Force, for which OALC 
completed construction and delivered the outpatient clinic currently in 
operation. VA currently serves over 78,000 Veterans through these 
facilities, with 170,000 Veterans enrolled.
    VA is under contract with Kiewit-Turner (KT), as prime contractor, 
to provide pre-construction services and to build the new facility 
within a 40-month construction schedule. Both the VA Secretary and 
Deputy Secretary are briefed monthly on the status of this project as 
part of our Construction Review Council 
(CRC) meetings. The primary purpose of the CRC, which was established 
by the Secretary in 2012, is to serve as a single point of oversight 
and performance accountability for VA's major construction program, and 
the regular meetings serve to ensure that VA leadership has visibility 
and oversight of the VA construction program--to include program 
requirements development and major changes. To date, VA is still in 
litigation with the contractor regarding the interpretation of the 
integrated design construct contract. As of March 2014, the contractor 
has filed a total of 23 complaints seeking monetary relief for 
approximately $13.3 million and has made it clear that it will continue 
to file additional complaints with the Civilian Board of Contract 
Appeals (CBCA) if KT is not compensated in the exact amount requested 
for changes or contract modifications. On February 28, 2014, VA filed a 
motion to dismiss KT's initial complaint, and KT filed its response 
with CBCA on March 31, 2014. VA filed its reply on April 14, 2014 which 
CBCA will take under advisement.
    Accordingly, I ask for the Chairman's and the Committee's 
understanding since VA will be unable to respond to the matters at 
issue in the litigation as it may compromise the Government's legal 
position. However, regardless of the litigation, construction is 
ongoing.
    Regarding the cost of the project, VA received the final 
appropriation of the $800 million total project cost as part of the FY 
2012 VA budget. VA signed a contract with KT to provide pre-
construction services on August 2010 and to build the new facility for 
$604 million with a firm ceiling price of $610 million. As of March 
2014, VA has paid KT $254.9 million for work performed, and supported 
by required documentation, under the contract agreement. The original 
contract amount has been revised to $616.6 million (not to exceed $630 
million), to reflect approved contract modifications. In a good faith 
effort and to assist the contractor in making payments for work 
performed, VA has allowed the contractor to bill for work performed 
later in the project up to $30 million.
    As part of its schedule reviews, VA will extend the contract 
completion date to adjust for delays that were not the responsibility 
of the contractor. The first extension was offered in February 2014, 
and VA awaits a response from the contractor. VA will continue to 
monitor the schedule during its reviews and work to mitigate further 
delays in the completion date. However, VA is concerned that KT 
continues to fall behind their proposed schedule based on monthly 
evaluations of schedules provided to VA.
    In the Spring of 2013, VA initiated monthly meetings with KT to 
facilitate open communication amongst senior executives to ensure that 
the project continued apace in spite of the ongoing litigation. It was 
very disappointing that the contractor made the decision to discontinue 
these meetings. However, VA staff continue to work with the contractor 
to ensure the construction of the medical center moves forward and is 
still operating within the appropriation. The local respective project 
teams also continue to meet to address any issue that may arise during 
the normal course of construction. Additionally, Glenn Haggstrom, 
Principal Executive Director for the VA Office of Acquisition, 
Logistics and Construction, meets monthly with Mr. Scott Cassels, of 
Kiewit Corporation, to discuss issues of concern.
    VA appreciates the Committee's interest and support to ensure that 
VA major construction projects, and more specifically the Denver 
replacement facility, are delivered successfully. While there have been 
challenges with this project, we have undertaken a comprehensive review 
of the major construction program and have taken numerous actions to 
strengthen and improve our execution of VA's ongoing major construction 
projects. With the acceptance and closure of the April 13, 2013, 
Government Accountability Office report recommendations and 
implementation of CRC recommendations, VA has changed the way it 
conducts business, significantly.
    Change orders are not unusual during the construction of any large, 
complex project, such as the Denver replacement medical center; 
however, VA recognized that our process was too lengthy and too 
cumbersome resulting in delays in the execution of change orders. We 
addressed those challenges by establishing new policies and metrics for 
change orders, by adding staff and legal counsel to help with the 
review of change orders and by bringing online a real-time, information 
technology tool to accept and track change orders. As a result, we are 
in a much better position now and are processing change orders at a 
much faster rate than in the past. Although the total number of changes 
in progress is in constant flux, our goal is to process all change 
orders within 60 days. Other areas identified for review and 
improvement include the design-review process and steps to streamline 
procedures, while at the same time ensuring that decisions are made at 
the appropriate levels within the Department. We will keep the 
Committee informed of our progress in these areas.
    Discussions continue with our Federal and industry partners, 
including the U.S. Army Corps of Engineers (USACE), on collaboration 
with VA on various aspects of our major construction program. VA and 
USACE have a long history of working together to advance VA facility 
construction and share best practices. Recent collaboration includes 
involvement in contract reviews for this construction project and the 
New Orleans construction project. Current discussions are a logical 
evolution of that relationship, and we will continue work with our 
Federal and private partners to drive the successful delivery of these 
facilities.
    In closing, each day, VA is moving toward its goal of improving and 
streamlining our processes to increase access to our Veterans and their 
families. To that end, to help ensure previous challenges are not 
repeated and to lead improvements in the management and execution of 
our capital asset program as we move forward, we will continue to focus 
on:

        <bullet> Ensuring well-defined requirements and costs are 
        provided to Congress when seeking appropriations for 
        construction projects;
        <bullet> Ensuring appropriate staffing levels are met to ensure 
        timely project and contract administration;
        <bullet> Continuing open dialogue at every level that includes 
        VA and construction and design contractors;
        <bullet> Ensuring early involvement of the medical equipment 
        planning and procurement teams; and
        <bullet> Applying the acquisition program management framework 
        to our projects.

    VA continually seeks innovative ways to further improve our ability 
to design and construct state-of-the-art facilities. VA is fully 
committed to this goal, and we have demonstrated great efforts to work 
together with our Federal and private partners to achieve VA's goal of 
being a people-centric, results-driven, and forward-looking 
organization, which ultimately enables us to better serve Veterans and 
their families.
    This committee has been a strong and supportive advocate for 
Veterans' health care, and VA will continue to ensure transparency 
during the construction of the Denver replacement facility.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to testify before the Committee today. My colleagues and I 
would be pleased to respond to questions from you and Members of the 
Committee.

                                 [F-dash]

                             FOR THE RECORD

                        Statement for the Record

               Statement of the Hon. Ed Perlmutter (CO-7)

    Chairman Coffman, Ranking Member Kirkpatrick, thank you for your 
efforts regarding the new stand-alone U.S. Department of Veterans 
Affairs Denver replacement medical center at the Fitzsimons medical 
campus in Aurora, Colorado.
    This hospital has been one of my top priorities for seven years, 
for six of those the project was in my congressional district, only to 
be removed in the redistricting process. This hospital has been 
promised to our veterans for nearly fifteen years. The project has gone 
through a number of iterations over the years under two Presidents and 
four Secretaries of the VA. The hospital is well underway and I 
appreciate the Committee's interest in it, but the time has come to 
focus our efforts on ensuring the completion of this hospital. Our 
veterans deserve nothing less and the people of Colorado and our nation 
expect it.
    Once completed, this medical center will serve hundreds of 
thousands of veterans across the Rocky Mountain West. The 182-bed 
facility will include a full range of medical, laboratory, research and 
counseling services, a 30-bed spinal cord injury unit, a 30-bed 
community living center and a PTSD rehabilitation clinic.
    The original design called for an approximately $1.1 billion state-
of-the-art medical center, but Congress authorized and appropriated 
$800 million for acquisition of approximately 40 acres of land and 
several buildings, as well as design and construction. The original 
design appears not to have significantly changed, and consequently a 
funding gap exists between the authorized amount for the contract and 
the overall cost of the project. This dispute is leaving the sub-
contractors who are small businesses left footing the bill as they are 
required to continue construction without the guarantee of getting paid 
for work completed. The contract dispute will be heard next month by 
the U.S. Civilian Board of Contract Appeals.
    Completely separate from the decision by the U.S. Civilian Board of 
Contract Appeals, the project would immediately benefit from insights 
provided by independent, external experts regarding the VA's 
construction policies and procedures going forward. I have urged the VA 
to work with the U.S. Army Corps of Engineers (Army Corps) which has 
decades of technical and managerial experience in hospital 
construction, as well as a remarkable track record for completing major 
construction projects on time and on budget. The VA has the authority 
to enter into an Interagency Agreement as soon as practicable to allow 
the Army Corps to conduct a Design-Construction Evaluation (DCE) on 
this project. This evaluation is a common practice to provide the VA 
with a full review of the procurement, engineering, construction and 
project management processes to identify problems and recommend 
solutions the VA can implement. The Army Corps regularly completes DCEs 
on its own projects at major milestones or when potential funding or 
schedule delays arise.
    The Army Corps has also worked with other federal agencies on a 
number of occasions to conduct evaluations on their construction 
practices to improve project management and timely project completion. 
The VA has a strong history of collaboration with the Army Corps on 
construction projects, and discussions are ongoing for the use of these 
DCEs on major construction projects, including the Aurora medical 
center. This approach can be done today, without any congressional 
action, and I continue to urge the VA to enter into this agreement as 
quickly as possible.
    Our veterans deserve the best hospital possible built at the best 
price as quickly as possible. They should not be forced to wait even a 
day longer than necessary for the timely, world-class care this medical 
center will provide. The U.S. Army Corps of Engineers has the expertise 
to assist the VA in fulfilling this promise to Rocky Mountain veterans.
    I look forward to continuing to work with the VA on this critical 
project to ensure our veterans receive the health care they earned.

                 Statement of Hon. Michael Bennet (CO)

    Chairman Coffman and Ranking Member Kirkpatrick:
    Today's hearing on the status of the Department of Veterans Affairs 
(VA) Regional Medical Facility in Aurora, Colorado, is critically 
important, not only to western region Veterans, but to the American 
taxpayer. When complete, this facility will provide world-class care to 
generations of Veterans and their families. However, the VA has 
struggled to keep this project on time and on budget, and we welcome 
continued scrutiny and oversight of this venture.
    As a Congressional delegation, we have attempted to maintain an 
open dialogue with the VA throughout this process. We have met with 
officials at the highest levels to identify and correct the systemic 
flaws plaguing this construction project. Although we have worked 
closely with VA officials over the last several months, our most 
pressing questions remain unanswered, and our concerns continue to grow 
regarding the management of the payment process to sub-contractors. The 
VA claims to have streamlined the change order system, yet sub-
contractors remain unpaid. It is unconscionable that Colorado small 
businesses should bear the burden of the VA's inability to competently 
manage this endeavor.
    Additionally, the fact that the VA and the prime contractor Kiewit-
Turner (KT) have been unable to resolve fundamental contract disputes 
and have instead entered into litigation has increased frustration with 
this project and added unacceptable levels of uncertainty for Veterans. 
For months, the Congressional delegation has worked to find avenues for 
the VA and KT to resolve these contract disagreements. Unfortunately, 
entrenched interests prevented both sides from coming together to act 
in the best interests of the people. However, I firmly believe we 
cannot allow the litigation process to hold back much-needed progress. 
The VA does not need Congressional approval or additional funding to 
take advantage of available best-practice standards and resources 
available through other government partners.
    The need for action is why I, along with Senator Udall and 
Representative Perlmutter, have called for the VA to enter into a 
Memorandum of Understanding with the U.S. Army Corps of Engineers 
(USACE). The USACE has the technical and managerial experience with 
major construction projects, as well as a successful track record for 
completing hospital construction on time and within budget. The USACE 
and the VA have the ability to enter into an interagency agreement to 
conduct a Design-Construction Evaluation (DCE) on this project to 
ensure completion. This evaluation is common practice in the 
construction community and will provide the VA with a full review of 
construction and project management processes to identify problems and 
recommend solutions going forward. The USACE routinely uses the DCE 
process on its own projects, and the VA will benefit greatly from this 
independent assessment.
    Again, I thank Chairman Coffman and Ranking Member Kirkpatrick for 
their attention to this important issue. The delays and cost overruns 
plaguing this project are deeply disturbing and represent a disservice 
to our nation's veterans and the American taxpayer. Veterans and 
Colorado small business deserve straightforward answers from the VA 
about how it will put this project back on track.
    Sincerely,

                                 [F-dash]

                    Statement of Senator Mark Udall

    Chairman Coffman and Ranking Member Kirkpatrick, the subject of 
today's hearing is of great importance to Colorado and veterans from 
throughout the Rocky Mountain west. When completed, the VA Medical 
Center currently under construction on the Fitzsimons campus in Aurora 
will provide the world-class medical care and facilities that our 
veterans have earned, and your attention to the project is appreciated.
    The demand for an on-time, on-budget completion of this critical 
project has united the Colorado veteran community and our congressional 
delegation. It is important that Congress continue to exercise its 
oversight authority to ensure that taxpayers and veterans receive the 
best possible facility for their tax dollars.
    We must also continue to identify and correct the systemic issues 
that have led to significantly delayed payments for many of the small 
businesses employed as subcontractors on this project. While there is 
no doubt that significant disagreements exist between VA and the prime 
contractor, it is not acceptable to delay payment to subcontractors for 
work already completed. VA and its contractors must take immediate 
steps to establish management practices and contract agreements that 
provide for far quicker review of change order requests. As I have 
stated repeatedly, VA should adopt standards and best practices long 
used by other federal agencies such as the Government Services 
Administration and the Army Corps of Engineers (USACE) to streamline 
the change order approval process. Those actions do not require 
congressional authority and should be taken by VA as soon as 
practicable.
    While the contract dispute between VA and the prime contractor is 
still pending review and adjudication in the U.S. Civilian Board of 
Contract Appeals, there are other immediate steps VA can take to ensure 
that best practices are being followed during the construction of the 
Aurora hospital and other major VA projects. USACE has significant 
experience and expertise in the management and construction of large 
military medical centers--as well as a record of delivering on-time, 
on-budget major medical facilities to the Department of Defense. In 
light of that fact, I--along with Senator Michael Bennet and Rep. Ed 
Perlmutter--wrote to VA Secretary Shinseki in March of this year urging 
VA to allow USACE to conduct a Design-Construction Evaluation, or DCE 
on the Aurora project.
    DCEs are a common practice used to provide construction managers 
with a full review of the procurement, engineering, construction and 
project management processes in order to identify problems and 
recommend solutions going forward. The Army Corps regularly completes 
DCEs on its own projects and has worked with other federal agencies--
including VA--to conduct evaluations of construction practices that 
improve project management and increase the likelihood of on-time 
completion. Such an evaluation would only look at the project going 
forward and would have no effect on the pending litigation. A DCE does 
not require a congressional mandate and could be underway in a matter 
of weeks. I would once again urge VA to take this common-sense, 
practical step as soon as practicable for the good of this project, 
Colorado veterans, and taxpayers.
    Again, I thank Chairman Coffman and Ranking Member Kirkpatrick for 
their attention to this important issue, and I appreciate the 
willingness of the witnesses to provide their important perspectives 
regarding this matter. As evidenced by the collaboration and united 
efforts of our veterans, state and local leaders, and the Colorado 
congressional delegation, the on-time, on-schedule completion of the 
replacement medical center is of extreme importance to all of us. We 
will not ask our veterans to wait any longer than absolutely necessary 
for this hospital. Through their service and sacrifice, they've earned 
the best medical care our country can offer, and every effort must be 
taken to deliver that care as promised. Anything less is simply not 
acceptable.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
